<html>
<title> - REAUTHORIZATION OF THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 111-511]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-511

                        REAUTHORIZATION OF THE 
                  NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-286 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Ann Begeman, Acting Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           GEORGE S. LeMIEUX, Florida
FRANK R. LAUTENBERG, New Jersey      JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2009.................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator DeMint......................................     3
Statement of Senator Lautenberg..................................     4
Statement of Senator Hutchison...................................     5
    Prepared statement...........................................     6
Statement of Senator Klobuchar...................................     6
Statement of Senator Begich......................................     7
Statement of Senator Snowe.......................................    43

                               Witnesses

Hon. Deborah A.P. Hersman, Chairman, National Transportation 
  Safety Board...................................................     7
    Prepared statement...........................................     9
Gerald L. Dillingham, Ph.D. Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................    14
    Prepared statement...........................................    16

                                Appendix

Response to written question submitted by Hon. Byron L. Dorgan to 

  Hon. Deborah A.P. Hersman......................................    53

 
                        REAUTHORIZATION OF THE 
                  NATIONAL TRANSPORTATION SAFETY BOARD

                              ----------                              


                       THURSDAY, OCTOBER 29, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We are going to begin the hearing today. 
This is a hearing of the Senate Commerce Committee, the 
Aviation Subcommittee, on the subject of the reauthorization of 
the National Transportation Safety Board.
    We appreciate very much our witnesses being here. It is the 
Honorable Debbie Hersman, the Chairman of the National 
Transportation Safety Board, and Dr. Gerald Dillingham, 
Director of Physical Infrastructure Issues, U.S. Government 
Accountability Office. We appreciate the presence of both of 
you.
    The National Transportation Safety Board does unbelievably 
important work, and we appreciate that. All of us hear about 
the NTSB, especially when a tragedy occurs, and almost always 
the news reports that describe a tragedy in transportation also 
say that investigators from the NTSB are on their way.
    So we understand part of the work of the NTSB, but there is 
another significant part of the National Transportation Safety 
Board work that we perhaps don't hear so much about on the 
news, and it is the behind-the-scenes evaluation and 
investigation and work to try to determine what kinds of rules 
should exist to promote public safety in our transportation 
systems.
    So let me say I have great regard for NTSB. I think it does 
a lot of good work. I notice that it has a ``most wanted'' 
list, and that most wanted list represents a list of 
recommendations that it most wants to have implemented by the 
agencies to whom they issue the recommendations. The NTSB works 
with respect to railroads and buses and airplanes, all forms of 
transportation in our country, and that most wanted list is 
something I was looking at the last couple of days because it 
is very, very important.
    Yesterday, we had a hearing in this full committee on the 
subject of distracted driving, the issue of the use of 
BlackBerrys and cell phones and texting devices in automobiles 
and moving vehicles. I know that the NTSB has been involved in 
those discussions, and I believe the NTSB has made some 
decisions about the issue of the use of those devices on 
railroads or trains and buses and so on. I commend them for 
that.
    One of my frustrations, as I was preparing for this 
hearing, is the lack of connection between the National 
Transportation Safety Board and those to whom they issue the 
recommendations. We have had hearings with the new head of the 
FAA to talk about the need for a review of all the 
recommendations that have been issued, and which of the 
recommendations have been adopted or implemented and which have 
been ignored, and the question of why have certain 
recommendations been ignored.
    The most wanted list, as I understand it now, from the 
National Transportation Safety Board includes recommendations 
on icing, on image recorders in the cockpit, on fatigue--all of 
which are very important. And I believe they are on the most 
wanted list because these recommendations are not yet 
implemented.
    I want to mention, as we begin today with respect to the 
aviation piece of this, a couple of things that I discovered in 
previous hearings, and then went to the Internet last evening 
and was doing some research. The crash in Buffalo, New York, 
which was an unbelievable tragedy, it was a Dash 8 airplane, 
and I discovered that it was 10 years ago, 1999--10 years ago--
that the National Transportation Safety Board took the FAA to 
task for failing to establish safety procedures for operating 
in icing conditions.
    Nearly 10 years later, the NTSB renewed its criticism over 
the FAA over what they called ``the unacceptably slow pace of 
revising its recommendations on deicing.'' And in fact, at that 
time, last October, before the Buffalo crash, the NTSB said, 
``In general, smaller planes like the Dash 8''--the NTSB even 
identified the type of aircraft. ``In general, smaller planes 
like the Dash 8, which uses a system of pneumatic deicing 
boots, are more susceptible to ice buildup than larger commuter 
planes that use a heating system to warm the wings.''
    I found that last evening when I was perusing these 
research materials. I found it astounding that the NTSB last 
fall, a year ago, was actually identifying the kind of airplane 
in which icing might be a very significant issue and on which 
the FAA needed to take action. And yet action hadn't been 
taken.
    And so, this issue of connecting the NTSB, whose mission is 
safety, to those for whom the recommendations are made and the 
lack of progress is very important. I note as well that in 
recent days, there has been an incident in the skies in which a 
commercial airline flew about 90 minutes without being able to 
be contacted by anyone on the ground, which is pretty 
astounding when you think about it. And fortunately, there was 
not a tragedy born of those errors.
    But for 90 minutes, 144 passengers are hauled across the 
sky at 35,000, 37,000 feet, and people on the ground are 
attempting to contact the airplane, and there is no contact. 
Well, in this day and age, given all the electronic 
capabilities we have, there is no excuse under any 
circumstances for that to be the case. And we learned from at 
least preliminary news reports from the NTSB--my guess is the 
investigation is not complete--that the two pilots of that 
airplane said they were working on laptops.
    Well, as I looked into that, I believe laptop computers are 
prohibited in that cockpit by the carrier that was involved. I 
am not sure, my understanding is the use of laptop computers in 
a cockpit is not prohibited by the FAA. That would have been a 
company rule rather than an FAA rule. Certainly, it should be 
an FAA rule.
    I had not thought much about that before, but having flown 
some myself, I understand the need in a cockpit to constantly, 
constantly monitor the instruments in that plane. That is the 
only way you maintain a level of safety. And so, that issue has 
again raised the question of what needs to be done here?
    Now let me just mention one other thing. The thing that is 
the most troubling to me about this is in the last two 
incidents where we have heard and seen what is going on in the 
cockpit. The Buffalo crash and the airliner that flew a week or 
so ago without contact with the ground, in both cases, it 
appears to me that there were violations of rules in the 
cockpit.
    One, a violation of the sterile cockpit rule, unbelievable 
conversation going down into that airport in Buffalo about 
things that weren't related to the descent of the airplane and 
the impending landing. A violation of the sterile cockpit rule.
    And second, if the pilots are to be believed, then 
violation of the use of laptops computers in the cockpit and 
failure to keep in touch with their instruments and so on.
    So, the question is, since those are the only two 
circumstances I know of in which we know what happened in two 
cockpits in the thousands and tens and tens of thousands of 
flights, is this just an aberration, or do we need to know a 
lot more about what is happening in cockpits? Let me be the 
first to say that I have great admiration for the airline 
pilots in this country. We have an unbelievable safety record, 
no question about that.
    But the circumstances where we have seen tragedy and the 
circumstances where we have seen error, suggest to me that we 
need to know a lot more about what is happening in the cockpit. 
I am troubled by the fact that there is a tape of only 30 
minutes in a cockpit with an airplane that flew an hour and a 
half without contacting anybody or nobody able to contact them.
    I am troubled by the fact that in this day and age of 
electronics that we don't have a circumstance in which anyone 
could know anything that was going on in that plane. That made 
no sense to me at all. So, I think this raises a lot of really 
important questions that the NTSB and the FAA and this 
committee have to address.
    And having said that, I want to call on my Ranking Member, 
Senator DeMint, for a comment.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman, and I appreciate 
your persistence on the safety issue and the hearings you have 
had and certainly agree with your comments.
    I would like to just make a couple of comments so we can 
get on and hear from the real experts here.
    A number of concerns that you mentioned, we have got to 
keep our focus on passenger safety, but there are a lot of 
strong interests within the system that I would like for some 
of you to address. Obviously, the airlines have interests--
operations, profit, other things--that we need to look at.
    The pilots unions are certainly involved with creating 
tensions here. The Chairman referenced the two pilots who flew 
hundreds of miles out of the way with no contact, but the Delta 
pilots union has disagreed with the decision to terminate these 
pilots. There is always that pressure from within.
    And now related, not directly, but the airport security, 
which certainly affects safety in the air, now their new 
director is apparently going to move to collective bargaining, 
which will take away some of the flexibility to deal with 
safety and threat issues. As a safety board, you have to look 
at a lot of different variables and be very concerned.
    I thank the families of Flight 3407 for their continued 
persistence in coming to hearings, pushing various safety 
proposals and keeping them in front of us so that we don't 
forget those who were lost because of mistakes or lack of 
training.
    So, again, Mr. Chairman, thank you. I look forward to 
hearing from our witnesses this morning. I yield back.
    Senator Dorgan. Thank you very much.
    Unless there is objection, I would like to hear from the 
two witnesses, and then we will have ample time for questions 
and statements and so on. If there is someone that has an 
urgent need to leave before we finish, I would be happy to 
recognize them. But otherwise, I will just recognize the 
witnesses.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. So no further opening remarks?
    Senator Dorgan. Right. Unless someone needs to leave 
before?
    Senator Lautenberg. Mr. Chairman, with all due respect----
    Senator Dorgan. Could you touch your microphone, please? 
Thanks, mom.
    Senator Lautenberg. In all due respect, I mean, there is a 
perspective, I think, an unusual perspective that follows the 
NTSB. Everyone can recall incidents that might have been 
avoided. The fact of the matter is--and I don't mean to steal 
time like this, but just if it was possible to kind of frame 
the debate a little bit in advance because it might be of 
assistance?
    Senator Dorgan. All right. Let me suggest we will do 2-
minute opening statements for those that are now in the room, 
and those that come later will wait until after we have heard 
the witnesses. I would like to get the statements on the record 
and then have ample time for questions today because I think--
but I recognize the inquiry by the Senator from New Jersey. He 
is recognized for 2 minutes.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    It is just that whenever we look at the system, we are 
really pleasantly surprised at the safety of the system and the 
elegant work, excellent work, rather--also elegant--of the NTSB 
and related agencies. Because when you look at the volume of 
traffic--air traffic, train traffic, road traffic--it is quite 
an incredible feat that we are able to protect our people as 
well as we do.
    I don't live on an airfield runway, but past my window in 
my apartment came a U.S. Airways airplane with Captain 
Sullenberger at the helm, and I wasn't home at the time, to 
land in the river, and there we saw what happens when people 
are trained and ready to do the job.
    But we see place after place where the result of lack of 
focus by the operator--the accident in Los Angeles, 25 people 
killed in 2008, and Buffalo and other places--and I think that 
something must be done in terms of pilots and training or at 
full standing who have modest incomes in their training years, 
many of whom live away from their operating base, and having to 
do a second job just to be able to maintain themselves and 
their families. And I think we have to examine that as a part 
of the beginning of a very serious problem.
    So, Mr. Chairman, thanks for holding this hearing. It is at 
a critical moment, and it is important.
    Senator Dorgan. Senator Lautenberg, thank you very much.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    As a former Vice Chairman of the NTSB, I certainly know 
what the Board does and what it can do. And I think that we 
have had a lot of Board recommendations that have made a 
difference. We have also had some recommendations that have not 
been taken and acted on by the FAA or the airlines, and they 
have, unfortunately, been proven to have been correct and that 
the measures should have been taken to avoid problems.
    I am concerned about another aspect of the Colgan air 
crash, which we have talked about a lot, and it is a stunning 
development that it would be 91 minutes without contact. But 
the other side of that is that apparently the FAA also violated 
its own rules by taking more than 40 minutes to call and alert 
the military after it lost communications in the air traffic 
control tower.
    So, I think we also would ask that you speak to that or 
look into it when you are looking at the crash because after 9/
11, we know that it is supposed to be an immediate 
communication from the FAA, and now we had a situation in which 
91 minutes passed, and it could have been something that was 
much more a problem, such as a potential terrorist plot.
    I know there are some other areas that need to be 
addressed. We had a hearing yesterday here on distracted 
driving, but we also talked about distracted airline pilots in 
a cockpit. I think looking at a recommendation by the FAA that 
is a national rule as opposed to an airline-by-airline rule is 
something that we would hope you would be considering.
    And also, as we are looking at this new technology with 
BlackBerrys as well as computers and other kinds of technology, 
what are the rules that we should have in buses, in airlines, 
in rail? We know that one rail accident happened in California 
because someone was texting who was supposed to be driving a 
train.
    So these are things that I hope that the Board will be 
looking at. And of course, this is an authorization for the 
board, and we want to hear what you are doing and see if there 
are tools that you don't have or things that you have not yet 
been able to recommend that would make a difference. So we will 
look forward to hearing from you.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

           Prepared Statement of Hon. Kay Bailey Hutchison, 
                        U.S. Senator from Texas
    Thank you, Senator Dorgan, for holding this hearing. Also, thank 
you to NTSB Chair Hersman and Dr. Dillingham from GAO, for your 
testimony.
    As a former Vice Chair of the NTSB, I understand well the important 
role the Board plays in promoting our Nation's transportation safety.
    The knowledge gained and the preventive measures taken because of 
the NTSB's work are crucial to the safe operation of our transportation 
system across all modes.
    Today's hearing is our Committee's first step toward reauthorizing 
the NTSB, whose last reauthorization expired over a year ago. 
Reauthorization presents a good opportunity for Congress to review the 
practices of the NTSB and make improvements as needed.
    It is also important that the Committee is confident proper 
management practices are in place at the Board, and effective use of 
taxpayer dollars is ensured. I look forward to hearing from Dr. 
Dillingham on the NTSB's progress in these areas.
    Thank you, Mr. Chairman, and I look forward to hearing from our 
witnesses.

    Senator Dorgan. Thank you very much.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, for 
holding this important hearing.
    Unfortunately, we are usually reminded of the important 
work of the NTSB when a tragedy occurs. In my state, it was the 
I-35W bridge collapse that killed 13 people and injured 
hundreds others. And it was during this emergency that I 
experienced firsthand the professionalism of the NTSB 
investigators, and I really appreciated the work they did 
there.
    But certainly infrastructure failures aren't the only 
concern here, and my colleagues have identified many of them. 
And I think the recommendations that the NTSB have made in the 
airline area are very helpful. We have had, as been mentioned, 
many tragedies recently. I know some of the family members are 
here from the crash in Buffalo, and just one of the most 
haunting things for me when we had that hearing was hearing the 
words of one of the pilots who said she hadn't really done 
deicing before. And it just was chilling for, I am sure, the 
family members to hear that.
    The train conductor in Los Angeles who was texting, the 
plane that was mentioned where, luckily, there was no tragic 
loss of life that overflew my State of Minnesota and went into 
Wisconsin. Again, preliminary reports, we don't have the full 
and complete picture yet, but it looks like some kind of 
distracted pilots there.
    So we really do welcome your recommendations in this area, 
especially I would like to hear from you about ideas that you 
have to prevent this from happening, for making sure that all 
aircraft have some kind of loud chime or something so that we 
know what is happening if there is distraction in the cockpit, 
to this ban, as we have all been talking about, on laptops for 
private use in the cockpits--to make sure that is a national 
rule--to other obvious pilot safety issues with the training, 
fatigue, and other things that we have been focused on with our 
FAA reauthorization, as well as the passenger bill of rights.
    Thank you very much.
    Senator Dorgan. Thank you.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, thank you very much. Thank 
you for holding this hearing.
    I will just be very brief, just to note some statistics and 
just really--and just for your commentary and your comments. 
You know, Alaska has 6 times as many pilots and 16 times as 
many aircraft per capita than any state in the country.
    Just in 2008, your organization investigated 110 aviation 
accidents in Alaska, resulting in 11 that created 24 
fatalities. So we are a very high-risk state, but also have 
some issues, as you can imagine, with those kind of numbers. So 
I will look forward to the questions and answering process 
here.
    Thank you very much.
    Senator Dorgan. Thank you very much, Senator Begich.
    Chairman Hersman, thank you very much for being with us. 
You have heard the comments of my colleagues and my comments as 
well.
    Your entire statement will be made a part of the permanent 
record, and you may proceed.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Thank you, Chairman Dorgan and Ranking Member 
DeMint, and Senators Lautenberg, Klobuchar, and Senator Begich, 
too. I know the NTSB's former Vice Chairman, Senator Hutchison 
was here a little while ago, and it is great to have that kind 
of knowledge on this committee.
    As Chairman of the National Transportation Safety Board, I 
am pleased to appear before you today to discuss our request 
for reauthorization. The members and the staff of this 
committee have historically been very supportive of the NTSB 
and its important mission. On behalf of our 391 employees, I 
want to thank you for your unfailing support throughout our 
agency's history.
    Our core mission is to investigate transportation accidents 
to determine what happened, how it happened, and how to prevent 
it from happening again. Today, we continue working hard to 
improve safety in a transportation world that looks very little 
like it did when we were first created in 1967.
    Our challenge today is to remain highly skilled and up-to-
date with an expert technical staff and state-of-the-art 
investigative tools to competently conduct thorough 
investigations that this committee and the American public 
deserve.
    As soon as we are notified of an accident, our 
investigators drop whatever they are doing, grab their go bags, 
and head to an accident scene, often getting there before the 
smoke has cleared. Some begin the meticulous work of 
documenting the scene in minute detail. Others seek out 
witnesses and survivors. Our Transportation Disaster Assistance 
Team reaches out to victims and their families to help them 
begin navigating through the shock, grief, and eventually the 
healing.
    No one wants a serious accident to ever occur. But when one 
does and we send a launch team, I am always amazed and proud of 
the work that they perform. To give you a glimpse of what we 
do, let me tell you about what we have accomplished in Fiscal 
Year 2009.
    First of all, we launched on 18 major accidents. There are 
too many to list for you right now, but some of them you will 
remember because they were so newsworthy. January 15, the 
forced landing of a U.S. Airways flight in the Hudson River 
following a multiple bird strike just after takeoff from 
LaGuardia. There were no fatalities.
    On February 12, Continental Connection Flight 3407 crashed 
on approach to Buffalo, impacting a house. There were 50 
fatalities.
    On June 22, a six-car WMATA train struck the rear of a 
standing train near Fort Totten in Washington, D.C. There were 
9 fatalities and 52 injuries.
    On August 8, a private aircraft and a tour helicopter 
collided in midair over the Hudson River near Hoboken, New 
Jersey. There were nine fatalities.
    In addition to these major accidents, we also launched to 
198 smaller accidents, primarily in general aviation, as 
Senator Begich mentioned. We also sent accredited 
representatives to support 10 foreign accident investigations.
    During the last fiscal year, we issued 18 major accident 
investigation reports, 2 summary reports, 15 accident briefs, 
and hundreds of regional aviation accident briefs. We conducted 
13 ``sunshine meetings'' and held 6 public hearings in 
aviation, rail, and highway.
    One of the busiest parts of our agency, and it is getting 
busier all the time, is our laboratory. Last year, our lab 
processed 374 cockpit voice and flight data recorders, along 
with digital cameras, video recordings, GPS navigation devices, 
cockpit displays, and engine monitoring devices.
    As you know, the end products of our investigations are our 
safety recommendations. In our 20-year history, we have issued 
about 13,000 recommendations. About 80 percent of those have 
been closed in an acceptable status. The success of our 
recommendations is often due to the work of our advocates in 
Congress, many of whom are on this committee.
    Like many government agencies, the NTSB is being called 
upon to accomplish more goals with fewer resources. We are 
rising to the challenge, but it is difficult, and we will need 
the continued support of Congress. In 2003, we completed 18 
major products and 4 public hearings with 427 employees. In 
2009, we will have completed the same number of major products 
and conducted 6 public hearings with 33 fewer people. This is a 
big number for an agency as small as the Safety Board.
    So how do we accomplish what we do? We have an 
extraordinary staff. They are smart, curious, and they have an 
unparalleled passion for transportation safety. These dedicated 
professionals do the invaluable work that they do at at an 
annual cost of about 30 cents per American.
    As we begin the dialogue to reauthorize the NTSB, we are 
asking for a few changes that we believe will clarify our 
authority and improve our ability to investigate significant 
accidents and incidents. And the right of access to critical 
financial and medical information related to an accident 
investigation is important to us as well.
    The NTSB is the safety conscience and compass of the 
transportation industry. As an independent, nonregulatory 
agency, we can be a catalyst for change by sharing what we 
learn with others, in particular, industry leaders and 
policymakers such as yourselves.
    As I mentioned, the transportation world is not the same as 
it was in 1967. With your help, we will continue to keep pace 
with these rapid changes that are occurring in transportation.
    Thank you for giving me the opportunity to talk about this 
remarkable agency and its dedicated people. I will be happy to 
answer your questions.
    [The prepared statement of Ms. Hersman follows:]

      Prepared Statement of Hon. Deborah A.P. Hersman, Chairman, 
                  National Transportation Safety Board
    Good morning, Chairman Dorgan, Ranking Member DeMint, and members 
of the Subcommittee. As Chairman of the National Transportation Safety 
Board (NTSB), I am pleased to appear before you today to discuss our 
request for reauthorization. The members and staff of this Committee, 
and especially of this Subcommittee, historically have been champions 
of the NTSB and its important mission. On behalf of our current 391 
employees, I want to thank you for your unfailing support throughout 
our history.
    Our core mission is to investigate transportation accidents to 
determine what happened, how it happened, why it happened, and what can 
be done to keep it from happening again. Today, we continue working 
hard to improve safety in a transportation world that looks very little 
like it did when we began in 1967. In the 42 years since our beginning, 
the mission of the agency has not changed, but the world has. 
Transportation accidents are increasingly complex as machines and 
technology become more and more sophisticated. Our challenge today is 
to remain highly skilled and up-do-date with an expert technical staff 
and state-of-the-art investigative tools to competently and efficiently 
conduct the thorough investigations you and the American people have 
come to expect and deserve.
    To give you a glimpse of the work we do, let me tell you what we 
have accomplished in Fiscal Year 2009. We issued 18 major accident 
investigation reports and 2 summary reports. In addition, we produced 
15 brief reports, hundreds of regional aviation safety accident briefs, 
and a Special Investigation Report on pedal misapplications. We 
conducted 13 public or ``sunshine'' meetings on 14 separate accident 
reports. We also conducted 6 public hearings on accidents that are 
still under investigation, including:

  <bullet> A 2008 fatal motorcoach accident in Victoria, Texas;

  <bullet> The safety of helicopter emergency medical services (HEMS);

  <bullet> The 2008 collision of a Metrolink commuter train with a 
        Union Pacific freight train in Chatsworth, California;

  <bullet> The 2009 crash of Colgan Air Flight 3407 near Buffalo, New 
        York;

  <bullet> The 2009 landing of U.S. Airways Flight 1549 in the Hudson 
        River in New York; and

  <bullet> The 2009 crash of Empire Airlines flight 8284 at Lubbock, 
        Texas.

                        NTSB--FY 2009 At A Glance
------------------------------------------------------------------------
            Established:                         April, 1967
------------------------------------------------------------------------
Number of Employees: (by HQ and                                 HQ: 299
 Regions)                                                  Regional: 92
------------------------------------------------------------------------
Major Reports and Products Adopted                     18 Major Reports
 by the Board:                                        2 Summary Reports
                                         1 Special Investigation Report
                                                       15 Brief Reports
------------------------------------------------------------------------
Major Accident Launches:                                             18
------------------------------------------------------------------------
Other Accident Launches:                                            198
------------------------------------------------------------------------
International Accident Launches:                                     10
------------------------------------------------------------------------
Public Hearings:                                                      6
------------------------------------------------------------------------
Recommendations Issued:                                             174
------------------------------------------------------------------------
Recommendations Closed:                                             87 Closed Acceptable Status
                                                                    22 Closed Unacceptable Status
------------------------------------------------------------------------
Vehicle Recorder Readouts:                                          374
------------------------------------------------------------------------
Materials Laboratory Examination                                    110
 Reports:
------------------------------------------------------------------------

    During my tenure on the Board, I have accompanied our investigators 
on 17 major accident launches. I have watched them drop whatever they 
were doing, grab their go-bags, and head to an accident scene to get 
there often before the smoke has cleared. Once on scene, our 
investigators hardly stop to rest or eat. Some begin the meticulous 
work of documenting the scene in minute detail, while others seek out 
witnesses and survivors. While investigators begin piecing together the 
accident sequence, our Transportation Disaster Assistance team reaches 
out to victims and their families to help them begin navigating through 
shock, grief, and eventually, healing. No one wants a serious accident 
to ever occur, but when one does and we send a launch team, I am always 
amazed and proud of the work our investigation team performs, both on-
scene and then later when they return to our offices and labs to 
continue solving the puzzle.
    In Fiscal Year 2009, we launched to 18 major accidents, including:

  <bullet> November 28, 2008: A self-propelled, unmanned shuttle train 
        at the Miami International Airport failed to stop at the 
        passenger platform and struck a wall at the end of the 
        guideway. 7 injuries.

  <bullet> December 20, 2008: A Boeing 737 (Continental Flight 1404) 
        veered off the side of the runway and crashed during takeoff 
        from Denver International Airport. No fatalities, 37 injuries.

  <bullet> January 7, 2009: A 29-passenger bus crossed into the 
        opposite travel lanes and overturned near Dolan Springs, 
        Arizona, ejecting 13 occupants and partially ejecting 2 
        occupants. 7 fatalities, 10 injuries.

  <bullet> January 15, 2009: An A-320 (U.S.Airways Flight 1549) made an 
        emergency landing in the Hudson River following a multiple bird 
        strike just after takeoff from New York's La Guardia Airport. 
        No fatalities.

  <bullet> January 27, 2009: An ATR-42 cargo aircraft (Empire Airlines 
        Flight 8284) crashed short of the runway while landing in 
        Lubbock, Texas. No fatalities.

  <bullet> February 12, 2009: A Bombardier Dash 8-Q400 operated by 
        Colgan Air (Continental Connection Flight 3407) crashed on 
        approach to Buffalo-Niagara International Airport, impacting a 
        house. 50 fatalities.

  <bullet> March 22, 2009: A Pilatus PC-12 operated by Eagle Capital 
        Leasing crashed on approach to Butte, Montana. 14 fatalities.

  <bullet> April 12, 2009: An unnamed recreational vessel allided with 
        a towing vessel Little Man II near Palm Valley, Florida. 5 
        fatalities.

  <bullet> May 4, 2009: An 18-inch diameter high pressure natural gas 
        pipeline ruptured near Palm City, Florida. 3 injuries.

  <bullet> May 8, 2009: An MBTA light rail passenger train struck the 
        rear of a stopped MBTA train in Boston. The train operator 
        admitted that he was texting on his cell phone when the 
        accident occurred. 51 injuries.

  <bullet> June 19, 2009: CN freight train derailed at a highway-rail 
        grade crossing in Cherry Valley, Illinois, causing a breach of 
        13 tank cars and the release of ethanol, followed by a fire 
        that spread to vehicles stopped at the grade crossing. 1 
        fatality, 7 injuries.

  <bullet> June 22, 2009: A WMATA train operating under automatic train 
        control struck the rear of a standing train near Ft. Totten 
        Station in Washington, D.C. 9 fatalities, 52 injuries.

  <bullet> June 26, 2009: A minor accident between a passenger car and 
        a truck tractor/trailer on I-44 near Miami, Oklahoma blocked 
        the two eastbound lanes of the 4-lane divided highway, causing 
        traffic to stop and a queue to form. Six minutes later, a truck 
        tractor/trailer crashed into the rear of the stopped and slow-
        moving traffic, causing the collision of 6 vehicles. 10 
        fatalities, 6 injuries.

  <bullet> July 1, 2009: An automobile struck a gasoline highway cargo 
        tank trailer near Upper Pittsgrove, New Jersey, rupturing 
        piping beneath the cargo tank (wet lines), resulting in the 
        release of gasoline onto the automobile, which then caught 
        fire. 1 fatality.

  <bullet> July 15, 2009: A tanker truck rollover occurred as the 
        driver of the truck swerved to avoid colliding with a passenger 
        car which lost control on I-75 near Hazel Park, Michigan. 3 
        injuries.

  <bullet> July 15, 2009: A cargo transfer hose ruptured while 
        transferring anhydrous ammonia from a highway cargo tank 
        trailer to a storage tank at an industrial facility in Swansea, 
        South Carolina. The resulting toxic ammonia cloud expanded 
        across a highway where a car drove into the gas cloud causing 
        the death of the driver. 1 fatality; 7 injuries.

  <bullet> July 18, 2009: A San Francisco MUNI light rail train ran 
        into the rear of a second train at the West Portal Station. 48 
        injuries.

  <bullet> August 8, 2009: A Piper PA-32, operated by a private pilot, 
        and a Eurocopter AS350, operated by Liberty Helicopters, 
        collided in midair over the Hudson River near Hoboken, New 
        Jersey. 9 fatalities.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    In addition to these major accidents, we also launched 
investigators to 198 accidents, primarily in general aviation, to 
conduct smaller-scale investigations. We also sent accredited 
representatives to support 10 foreign accidents including the Air 
France A330 crash in the Atlantic Ocean on July 1, 2009, the crash of a 
Sikorsky S-92 helicopter in the sea near St. Johns, Newfoundland, on 
March 12, 2009, and the crash of a Learjet Model 45 near Mexico City on 
November 4, 2008.
    As you know, the end products of our investigations are our safety 
recommendations to government agencies, transportation operators, and 
other stakeholders to improve transportation safety. In our 40-year 
history, we have issued more than 12,000 recommendations, about 80 
percent of which have been closed in an acceptable status. Last year 
alone, we issued 174 new recommendations. We also closed 109 older 
recommendations, 87 of those in an acceptable status. Of course, the 
success of our recommendations is often directly due to the work of our 
advocates in Congress, many of whom are on this Committee. For example, 
in 2007, Congress made huge strides in advancing railroad safety with 
the passage of the Federal Rail Safety Improvement Act of 2007 (Public 
Law 110-432). This one historic bill addressed significant safety 
issues and long-standing recommendations directed to the rail industry, 
namely, hours of service and positive train control. The NTSB 
appreciates your listening to us regarding these recommendations.
    One of the busiest parts of our agency--and it is getting busier 
all the time--is our laboratory. In our vehicle recorder lab, on-board 
vehicle recorders are downloaded and studied to support accident 
investigations. In FY 2009, our lab processed 374 cockpit voice and 
flight data recorders, along with digital cameras, video recordings, 
GPS navigations devices, cockpit displays and engine monitoring 
devices. About 30 percent of our flight data and voice recorder 
readouts support foreign accident investigations. The workload in the 
vehicle recorder lab continues to grow as the number and complexity of 
recording devices continually expands. In addition, our materials lab 
examined evidence collected at accident scenes--anything from aircraft 
engines to pieces of highways--in search of clues to the causes of 
accidents. Last year, the materials lab produced 110 separate reports.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Like many government agencies, the NTSB is being called upon to 
accomplish its goals with fewer resources. We are rising to the 
challenge, but it is difficult, and we will need the continued support 
of Congress. In 2003, the NTSB completed 18 major products and four 
public hearings with 427 employees. In 2009, we will complete the same 
number of major products and two additional hearings but with 33 fewer 
people. In addition, our hiring mix has had to change in recent years 
to meet regulatory standards in such areas as computer security and 
contracting requirements. We thus have not been able to focus all of 
our recent hiring on adding or replacing investigators or 
transportation specialists.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So how do we accomplish what we do? We have an extraordinary staff. 
They are smart, they are curious, they love to solve mysteries, and 
they have an unparalleled passion for transportation safety. This 
unique mixture of talent and enthusiasm is why they have been able to 
tell us the causes of hundreds of accidents, explaining why these 
tragedies happened and what should be done so that they never happen 
again somewhere else. These dedicated professionals do this invaluable 
work at an annual cost of about 30 cents per American.
    As we begin this dialogue to reauthorize the NTSB, we are asking 
for technical changes that clarify our statute and a few modest 
substantive changes that we believe will improve our ability to 
thoroughly investigate significant accidents:

  <bullet> Provide explicit authority for the NTSB to investigate 
        incidents. While the NTSB already investigates transportation 
        incidents that may not result in loss of life or damage to 
        property, e.g., runway incursions and near-misses, this change 
        would allow the NTSB to begin a timely investigation of an 
        event that might otherwise be examined first under a process 
        internal to the owning agency or organization. One example of 
        this is the ``lost link'' situation between the ground station 
        and an unmanned aircraft system (UAS) that results in an 
        uncontrolled intrusion into the National Airspace. Two other 
        examples occurred just last week: the landing of a Boeing 767 
        on an active taxiway at Atlanta Hartsfield Airport and the 150-
        mile overflight of an Airbus 320 near Minneapolis. This 
        requested change is consistent with a worldwide push by the 
        International Civil Aviation Organization (ICAO) to its member 
        nations to adopt a more proactive stance to preventing 
        accidents by investigating incidents.

  <bullet> Clearly articulate the NTSB's right to access critical 
        information related to an accident during a Board 
        investigation. Currently, the NTSB has subpoena power that is 
        enforceable in Federal Court, but in rare instances, the Board 
        meets with resistance to this authority with regard to medical 
        and financial records. These records sometimes become critical 
        to an investigation, for example, prescription records to 
        determine the medical fitness of a ship's captain, or the 
        credit card records to ascertain the activities of an airplane 
        pilot hours before an accident.

    In terms of resources, we are asking that the Congress authorize 
our staffing and funding as follows:

  <bullet> 2009: 393 staff; $91,000,000;

  <bullet> 2010: 406 staff; $99,200,000;

  <bullet> 2011: 477 staff; $117,368,000;

  <bullet> 2012: 477 staff; $120,258,000;

  <bullet> 2013: 477 staff; $122,187,000;

  <bullet> 2014: 477 staff; $124,158,000.\1\
---------------------------------------------------------------------------
    \1\ Assumes salaries increase by 2 percent each year beginning with 
Calendar 2010, and an inflation factor of .5 percent.

    The NTSB is the safety conscience and compass of the transportation 
industry. We are uniquely situated to think about transportation safety 
in the ideal and then point the way toward a safer transportation 
system. As an independent, non-regulatory agency, we can articulate 
needed safety improvements and innovations without having to prove that 
they are cost beneficial, profit generating, or politically feasible. 
Furthermore, through our recommendations, we can reach out directly to 
industry leaders, other government agencies, and policymakers such as 
the members of this Committee.
    As I mentioned earlier, the transportation world is not the same as 
it was in 1967. With the help of Congress, we are currently up to the 
challenge, and with your continued support, we will keep pace with 
changes that are occurring in transportation, sometimes at breathtaking 
speed. Thank you for giving me the opportunity to talk to you about 
this remarkable agency and its dedicated people. I will be happy to 
answer your questions.

    Senator Dorgan. Chairman Hersman, thank you very much for 
being with us today and for your testimony.
    Next, we will hear from Dr. Gerald Dillingham, who is the 
Director of Physical Infrastructure Issues at the U.S. 
Government Accountability Office.
    Dr. Dillingham, you may proceed.

       STATEMENT OF GERALD L. DILLINGHAM, Ph.D. DIRECTOR

                 PHYSICAL INFRASTRUCTURE ISSUES

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
DeMint, and members of the Subcommittee.
    We appreciate the opportunity to testify before you today 
as you consider the reauthorization of the National 
Transportation Safety Board. In 2006, we conducted a 
comprehensive review of management issues at NTSB, with follow-
up reviews in 2008 and earlier this year in preparation for 
this hearing.
    Following our initial review, we provided NTSB with 21 
recommendations aimed at improving the efficiency of its 
organizational management and operations. Our reviews did not 
focus on the process or procedures that NTSB employs in 
conducting actual accident investigations.
    Mr. Chairman, I want to be clear, our reviews did not yield 
any findings that would diminish NTSB's reputation as the gold 
standard for transportation accident investigations.
    Our reviews concentrated in three areas: first, an 
assessment of NTSB's practices against leading practices in 
selected management areas, such as strategic planning, 
information technology, and human capital; the second area was 
NTSB's process for selecting accidents other than aviation 
accidents that it chooses to investigate and the extent to 
which it is meeting its mandate to conduct transportation-
related safety studies; and third, the cost-effective use of 
its Ashburn, Virginia, training center.
    Recognizing that some of our recommendations could take 
considerable time and effort to fully implement, we classified 
NTSB's progress in implementing a recommendation as significant 
if the agency had taken steps that went beyond the early 
planning stages. Overall, NTSB has been very responsive to our 
recommendations and has fully implemented or made significant 
progress in implementing all of them.
    With regard to the management areas, we made 15 related 
recommendations. Overall, NTSB has fully implemented or made 
significant progress in all of the areas identified in our 
review.
    Although NTSB has shown improvement in its human capital 
planning and has undertaken several initiatives aimed at 
improving the agency's managerial and diversity profile, these 
efforts have not resulted in significant changes in NTSB's 
workforce and management diversity profile.
    Currently, NTSB's workforce includes smaller percentages of 
women and minority group members when compared with the 
composition of the Federal workforce. Additionally, minority 
group members hold less than 10 percent of NTSB supervisory or 
managerial positions, and women hold slightly less than 25 
percent of these positions.
    At the senior executive level, there are two women and no 
minority group representation among the 15 member corps. This 
circumstance is especially important because the SES corps 
generally represents the most experienced segment of the 
Federal workforce. Our research has shown that a diverse SES 
corps can strengthen an organization by bringing a wide variety 
of perspectives and approaches to policy development and 
decisionmaking.
    We think that NTSB may have an increased opportunity to 
improve its workforce and management diversity profile. This 
opportunity exists because within the next 3 years, more than 
50 percent of NTSB's current supervisors and managers will be 
eligible to retire, and slightly over 70 percent of those 
filling critical leadership positions are at least 50 years of 
age.
    With regard to our recommendation as to how NTSB selects 
accidents for investigations and conducts safety studies, NTSB 
has fully implemented or made substantial progress toward 
implementing the four recommendations that we made in this 
area. Since our review in 2006, NTSB has initiated three safety 
studies, one of which is in the final review stage.
    NTSB officials have proposed broadening the kind of 
activities that would meet NTSB's legislative mandate to 
conduct safety studies. We think that reauthorization could be 
an ideal time to obtain input from stakeholders, including 
Congress, on whether the proposed broadening of what 
constitutes a safety study would meet NTSB's legislative 
requirement.
    With regard to the NTSB's increased use of its training 
center and the decrease in the center's overall operating 
deficit, NTSB took several actions to address this issue. As a 
result of those actions, NTSB has increased the use of the 
center's classroom space from 10 percent in 2006 to 80 percent 
in Fiscal Year 2009.
    NTSB also reduced the training center's annual deficit by 
about 50 percent, from about $4 million in 2005 to about $2 
million in 2009. If circumstances do not change, the training 
center will continue to have about a $2 million annual deficit 
for the remaining 12 years of the training center lease.
    Mr. Chairman, this concludes my prepared statement. I would 
be happy to respond to any questions for you or the 
Subcommittee members.
    [The prepared statement of Dr. Dillingham follows:]

      Prepared Statement of Gerald L. Dillingham, Ph.D. Director, 
 Physical Infrastructure Issues, U.S. Government Accountability Office
    Mr. Chairman and members of the Subcommittee:
    We appreciate the opportunity to testify before you today as you 
consider the reauthorization of the National Transportation Safety 
Board (NTSB). NTSB is a relatively small agency that has gained a 
worldwide reputation as a preeminent investigator of transportation 
accidents. With a staff of about 400 and a budget of $91 million for 
Fiscal Year 2009, NTSB is charged with investigating every civil 
aviation accident in the United States and selected accidents in other 
transportation modes, determining the probable cause of these 
accidents, making recommendations to address safety issues identified 
during accident investigations, and performing transportation safety 
studies. To support its mission, NTSB built a Training Center that 
opened in 2003 and provides training to NTSB investigators and other 
transportation safety professionals.
    As the share of Federal resources used to address the Nation's 
long-term fiscal imbalance and other national priorities grows, funding 
for increases in the budgets of individual agencies becomes more 
uncertain. It is therefore critical for NTSB to use its resources as 
efficiently as possible to carry out its mission. In 2006, we conducted 
a broad review of the agency's management practices, examined how it 
carried out its activities related to accident investigations and 
safety studies, and analyzed whether its Training Center was cost-
effective.\1\ In total, we made 21 recommendations in these areas. In 
addition, in recent years, other entities have conducted reviews and 
made recommendations to NTSB related to information security practices 
and financial management. Our testimony addresses NTSB's progress in: 
(1) following leading practices in management areas such as strategic 
planning, human capital management, information technology (IT), and 
financial management; (2) increasing the efficiency of activities 
related to investigating accidents, issuing recommendations, and 
conducting safety studies; and (3) increasing the use of its Training 
Center.
---------------------------------------------------------------------------
    \1\ GAO, National Transportation Safety Board: Progress Made, yet 
Management Practices, Investigation Priorities, and Training Center Use 
Should Be Improved. GAO-07-118 (Washington, D.C.: Nov. 22, 2006).
---------------------------------------------------------------------------
    Our testimony is based on our analysis of policies and procedures 
that NTSB developed in response to our recommendations and to the 
recommendations of the independent auditors of NTSB's information 
systems. To perform our analysis, we reviewed NTSB's agencywide, IT, 
and human capital strategic plans; office operating plans; and other 
relevant documents. We also visited the NTSB Training Center; 
interviewed NTSB's Chief Information Officer, Chief Financial Officer, 
an d other agency officials; and updated information we reported in 
2006 and 2008.\2\ In addition, we performed limited testing of NTSB's 
laptop computers. In our analysis, we classified NTSB's progress in 
implementing a recommendation as limited when the agency was in the 
early planning stages and documents or milestones for actions did not 
exist or the agency did not follow leading practices. Recognizing that 
many recommendation s may take considerable time and effort to fully 
implement, we classified NTSB's progress in implementing a 
recommendation as significant if the agency had taken steps beyond the 
early planning stages toward addressing the concerns. For example, NTSB 
might have developed documents or policies that, for the most part, 
followed leading practices. Finally, we classified a recommendation as 
fully implemented when NTSB had fully implemented plans or processes 
that followed leading practices NTSB provided technical comments on a 
draft of this statement that we incorporated as appropriate. We 
conducted this performance audit from July 2009 to October 2009 in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \2\ GAO, National Transportation Safety Board: Preliminary 
Observations on the Value of Comprehensive Planning and Greater Use of 
Leading Practices and the Training Academy. GAO-06-801T (Washington, 
D.C.: May 24, 2006); GAO-07-118; and GAO, National Transportation 
Safety Board: Progress Made in Management Practices, Investigation 
Priorities, Training Center Use, and Information Security, but These 
Areas Continue to Need Improvement. GAO-08-652T (Washington, D.C.: Apr. 
23, 2008).
---------------------------------------------------------------------------
NTSB Has Made Progress in All Management Areas, but Further Actions Are 
        Needed to Fully Implement Some Recommendations
    Overall, NTSB has fully implemented or made significant progress in 
following leading management practices in all eight areas that our 
recommendations addressed in 2006 and 2008--communication, strategic 
planning, IT, knowledge management, organizational structure, human 
capital management, training, and financial management. We made 15 
management recommendations in these areas based on leading agency 
management practices that we identified through our government-wide 
work. Although NTSB is a relatively small agency, such practices remain 
relevant. Figure 1 summarizes NTSB's progress in implementing our 
management recommendations.
Figure 1: Implementation Status of GAO's Recommendations Related to 
        NTSB's Management
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: GAO analysis of NTSB data.
    <SUP>a</SUP> Users with local administrator privileges on their 
workstations have complete control over all local resources, including 
accounts and files, and have the ability to load software with known 
vulnerabilities, either unintentionally or intentionally, and to modify 
or reconfigure their computers in a manner that could negate network 
security policies as well as provide an attack vector into the internal 
network. Accordingly, industry best practices provide that membership 
in local administrators' groups should be limited to only those 
accounts that require this level of access.
    <SUP>b</SUP> In 2007, we issued a legal decision finding that NTSB 
improperly used its appropriated funds to purchase accidental death and 
dismemberment insurance for its employees on official travel. NTSB does 
not have an appropriation specifically available for such a purpose, 
and the expenditures cannot be justified as a necessary expense. 
Because NTSB has no appropriation available to purchase accident 
insurance, the payments NTSB made constitute violations of the 
Antideficiency Act. 31 U.S.C. 1341(a). We did not make a 
recommendation regarding this violation of the act because we reported 
the violation in a Comptroller General's decision, and such decisions 
do not include recommendations. GAO, Decision of the Comptroller 
General of the United States, B-309715, September 25, 2007, National 
Transportation Safety Board--Insurance for Employees Traveling on 
Official Business. NTSB remedied this violation through a Fiscal Year 
appropriation. Pub. L. No. 110-161, Title III, 121 Stat. 1844, 2441 
(2007). A bill to reauthorize the Federal Aviation Administration, H.R. 
915, 111th Cong., 2009, would provide NTSB with specific authority to 
purchase this insurance.

    NTSB had fully implemented three of our management recommendations 
as of our last report in April 2008--our recommendations to: (1) 
facilitate communication from staff to management, (2) align 
organizational structure to implement a strategic plan, and (3) correct 
an Antideficiency Act violation related to purchasing accidental death 
and dismemberment insurance for employees on official travel. In 
addition, NTSB has made further progress on seven of our management 
recommendations since 2008. First, it started reporting to Congress on 
the status of our recommendations by including the actions it has taken 
to address them in its Annual Report to Congress.\3\ In addition, NTSB 
has taken steps to implement all three of our IT-related 
recommendations:
---------------------------------------------------------------------------
    \3\ NTSB, Annual Report to Congress 2008 (Washington D.C.: July 1, 
2009).

  <bullet> NTSB has fully implemented an IT strategic plan that 
        addresses our comments. Moreover, in compliance with the 
        Federal Information Security Management Act of 2002 (FISMA), 
        NTSB has undergone annual independent audits, hiring outside 
        contractors to perform security testing and evaluation of its 
        computer systems.\4\
---------------------------------------------------------------------------
    \4\ The Federal Information Security Management Act of 2002 
(FISMA), Pub. L. No. 107-347, 116 Stat. 2899, 2946, codified as amended 
at 44 U.S.C.  3541 et seq., requires that each agency shall have 
performed an independent evaluation of the information security program 
and practices of that agency to determine their effectiveness. 44 
U.S.C.  3545(a)(1). Agencies that do not have an Inspector General, 
such as the National Transportation Safety Board (NTSB), shall engage 
an independent external auditor to perform the evaluation. 44 U.S.C.  
3545(b)(2). In Fiscal Years 2007 and 2008, NTSB contracted with Leon 
Snead & Company to perform the independent external audits. See Leon 
Snead & Company, P.C., National Transportation Safety Board: Compliance 
with the Requirements of the Federal Information Security Management 
Act, Fiscal Year 2007 (Sept. 24, 2007), and National Transportation 
Safety Board: Compliance with the Requirements of the Federal 
Information Security Management Act, Fiscal Year 2008 (Sept. 29, 2008). 
These audits, which were submitted to the Office of Management and 
Budget as required by FISMA, identified weaknesses in NTSB's compliance 
with FISMA requirements and included an assessment of the agency's 
actions to address recommendations in prior-year FISMA reports. Those 
prior reports include U.S. Department of Transportation, Office of 
Inspector General, Information Security Program: National 
Transportation Safety Board, Report No. FI-2006-001 (Washington, D.C.: 
Oct. 7, 2005); and Information Security Program: National 
Transportation Safety Board, Report No. FI-2007-001 (Washington, D.C.: 
Oct. 13, 2006).

  <bullet> We performed limited testing to verify that NTSB has 
        implemented our recommendation to install encryption software. 
        Agency officials confirmed, however, that while encryption 
        software is operational on 410 of the agency's approximately 
        420 laptop computers, the remaining laptops do not have 
        encryption software installed because they do not include 
        sensitive information and are not removed from the headquarters 
---------------------------------------------------------------------------
        building.

  <bullet> NTSB has made significant progress in limiting local 
        administrator privileges while allowing for employees to add 
        software and print from offsite locations as necessary.

    NTSB has also drafted a strategic training plan that, when 
finalized, would address GAO guidance on Federal strategic training and 
development efforts and establish the core competencies needed for 
investigators and other staff. In addition, two modal offices have 
developed core curricula that relate specifically to their 
investigators.
    In addition, NTSB obligated $1.3 million in September 2009 to the 
National Business Center--an arm of the Department of the Interior that 
provides for-fee payroll services to Federal agencies--to develop a 
full cost accounting system for NTSB based on a statement of work. NTSB 
officials said that the first phase of the cost accounting system will 
be implemented late in Fiscal Year 2010. When completed to permit 
recording time and costing of investigations and other activities, 
including training, this action will fully implement our 
recommendation.
    The remaining five management recommendations have not yet been 
fully implemented. However, NTSB has initiated actions that could lead 
to the full implementation of the remainder of the recommendations. For 
example, GAO offered suggestions in 2008 for improving NTSB's 
agencywide strategic plan, and NTSB is in the final stages of updating 
its strategic plan, which may address our comments by incorporating all 
five agency mission areas in its goals and objectives and obtaining 
comments from Congress or other external stakeholders potentially 
affected by or interested in the plan. In addition, NTSB has continued 
to improve its knowledge management by developing a plan to capture, 
create, share, and revise knowledge, and the agency is deploying 
Microsoft SharePoint to facilitate sharing useful information within 
NTSB.
    In April 2008, we reported that NTSB had made significant progress 
in implementing our human capital planning recommendation by issuing a 
human capital plan that incorporated several strategies on enhancing 
the recruitment process but was limited in some areas of diversity 
management. As we have previously reported, diversity management is a 
key aspect of strategic human capital management. Developing a 
workforce that includes and takes advantage of the Nation's diversity 
is a significant part of an agency's transformation of its organization 
to meet the challenges of the 21st century. The most recent version of 
NTSB's human capital plan establishes goals for recruiting, developing, 
and retaining a diverse workforce, and NTSB provided diversity training 
to 32 of its senior managers and office directors in May 2009. Table 1 
compares the diversity of NTSB's Fiscal Year 2008 workforce with that 
of the Federal Government and the civilian labor force.
 ----------------------------------------------------------------------------------------------------------------

    Table 1.--NTSB, Federal Government, and Civilian Labor Force Diversity by Percentage, Fiscal Year 2008 a
----------------------------------------------------------------------------------------------------------------
                                                           Fiscal Year 2008
                     -------------------------------------------------------------------------------------------
                        African    American Indian/      Asian/Pacific
                       American      Alaska Native         Islander        Hispanic    White     Women     Men
----------------------------------------------------------------------------------------------------------------
NTSB                      17.0%                1.0%                4.0%        2.0%    76.0%     38.0%    62.0%
Federal Government        17.9%                1.9%                5.4%        7.9%    66.6%     44.2%    55.8%
Civilian labor force      10.0%                0.7%                4.3%       13.2%    70.7%     45.6%    54.4%
 b
----------------------------------------------------------------------------------------------------------------
Sources: Federal Government and civilian labor force data are from the Office of Personnel Management's Fiscal
  Year 2008 Equal Opportunity Recruitment Program report. Data for NTSB are from the supplement to its strategic
  human capital plan.
a This data represents the most recent data NTSB has issued on diversity.
b The civilian labor force is defined as persons 16 years and older (including Federal workers), regardless of
  citizenship, who are employed or looking for work and are not in the military or institutionalized. A minimum
  age of 18 years is required for most Federal employment.

    As the table shows, the percentages of NTSB's Fiscal Year 2008 
workforce that were women and minorities were lower than those of the 
Federal Government. Under the Office of Personnel Management's 
regulations implementing the Federal Equal Opportunity Recruitment 
Program, agencies are required to determine where representation levels 
for covered groups are lower than for the civilian labor force and take 
steps to address those differences.\5\
---------------------------------------------------------------------------
    \5\ The Equal Employment Opportunity Commission's Management 
Directive 715 provides guidance and standards to Federal agencies for 
establishing and maintaining effective equal employment opportunity 
programs, including a framework for Executive Branch agencies to help 
ensure effective management, accountability, and self-analysis to 
determine whether barriers to equal employment opportunity exist and to 
identify and develop strategies to mitigate or eliminate the barriers 
to participation.
---------------------------------------------------------------------------
    Additionally, as of Fiscal Year 2008, 9 percent of NSTB's managers 
and supervisors are minorities and 24 percent are women (see fig. 2). 
Furthermore, according to NTSB, none of NTSB's current 15-member career 
Senior Executive Service (SES) staff were members of minority groups, 
and only 2 of them were women. As we have previously reported, 
diversity in SES, which generally represents the most experienced 
segment of the Federal workforce, can strengthen an organization by 
bringing a wider variety of perspectives and approaches to policy 
development and decisionmaking.
Figure 2: Distribution of NTSB Supervisory or Managerial Positions, by 
        Race and Gender, Fiscal Year 2008
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: GAO analysis of NTSB data.

    NTSB has undertaken several initiatives to create a stronger, more 
diverse pool of candidates for external positions. These initiatives 
include the establishment of a Management Candidate Program that has 
attracted a diverse pool of minority and female candidates at the GS 
13/14 level. NTSB's Executive Development Program focuses on 
identifying candidates for current and future SES positions at the 
agency. Despite these efforts, NTSB has not been able to appreciably 
change its diversity profile for minority group members and women.
    NTSB's current workforce demographics may present the agency with 
an opportunity to increase the diversity of its workforce and 
management. According to NTSB, in 3 years, more than 50 percent of its 
current supervisors and managers will be eligible to retire, as will 
over 25 percent of its general workforce. Furthermore, 53 percent of 
its investigators and 71 percent of those filling critical leadership 
positions are at least 50 years of age. Although actual retirement 
rates may be lower than retirement eligibility rates, especially in the 
present economic environment, consideration of retirement eligibility 
is important to workforce planning.
NTSB Has Made Its Selection of Accident Investigations More Efficient, 
        but Reporting Can Be Improved
    We previously made four recommendations to NTSB to improve the 
efficiency of its activities related to investigating accidents, such 
as selecting accidents to investigate and tracking the status of its 
recommendations, and increasing its use of safety studies (see fig. 3).
Figure 3: Implementation Status of GAO Recommendations Related to 
        NTSB's Accident Investigation Mission and Safety Studies
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: GAO analysis of NTSB data.

    NTSB is required by statute to investigate all civil aviation 
accidents and selected accidents in other modes--highway, marine, 
railroad, pipeline, and hazardous materials.\6\ Since our April 2008 
report, NTSB has fully implemented our recommendation to develop 
transparent policies containing risk-based criteria for selecting which 
accidents to investigate. The recently completed highway policy assigns 
priority to accidents based on the number of fatalities, whether the 
accident conditions are on NTSB's ``Watch List'' \7\ or whether the 
accidents might have significant safety issues, among other factors 
(see fig. 4). For marine accidents, NTSB has a memorandum of 
understanding (MOU) with the U.S. Coast Guard that includes criteria 
for selecting which accidents to investigate. In addition, NTSB has now 
developed an internal policy on selecting marine accidents for 
investigation. This policy enhances the MOU by providing criteria to 
assess whether to launch an investigation when the Coast Guard, not 
NTSB, would have the lead. In April 2008, we reported that NTSB had 
also developed a transparent, risk-based policy explaining which 
aviation, rail, pipeline, and hazardous materials accidents to 
investigate.\8\
---------------------------------------------------------------------------
    \6\ NTSB also has the authority to investigate any other accident 
related to the transportation of individuals or property when its board 
decides the accident is catastrophic or involves problems of a 
recurring character, or the investigation would help carry out NTSB 
authorities for accident investigation. 49 U.S.C.  1131(a)(1)(F).
    \7\ The Watch List contains accident conditions that could either 
support previous NTSB recommendations or sustain issues being developed 
in accidents currently under investigation.
    \8\ NTSB conducts all of its marine, rail, pipeline, hazardous 
materials, and highway accident investigations at the scene of the 
accident. In contrast, for aviation accidents, NTSB conducts on-scene 
investigations of major accidents and more limited investigations of 
accidents not designated as major. NTSB defines a major accident as one 
that involves an issue that is related to a current safety study or 
special investigation, affects public confidence or transportation 
safety in a significant way, or is catastrophic.
---------------------------------------------------------------------------
Figure 4: Two NTSB Investigators Assess Motorcoach Wreckage
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: NTSB.

    The remaining three recommendations have not yet been fully 
implemented. However, NTSB has initiated actions that could lead to 
closure of the recommendations. NTSB is deploying an agencywide 
electronic information system based on Microsoft SharePoint that will 
streamline and increase NTSB's use of technology in closing out its 
recommendations and in developing reports. When fully implemented, this 
system should serve to close these two recommendations.
    NTSB has also made significant progress in implementing our 
recommendation to increase its use of safety studies, which are 
multiyear efforts that result in recommendations. They are intended to 
improve transportation safety by effecting changes to policies, 
programs, and activities of agencies that regulate transportation 
safety. While we, the Department of Transportation, and nongovernmental 
groups, like universities, also conduct research designed to improve 
transportation safety, NTSB is mandated to carry out special studies 
and investigations about transportation safety, including studies about 
how to avoid personal injury.\9\ Although NTSB has not completed any 
safety studies since we made our recommendation in 2006, it has three 
studies in progress, one of which is in final draft, and it has 
established a goal of developing two safety study proposals and 
submitting them to its board for approval each year. NTSB officials 
told us that because the agency has a small number of staff, it has 
difficulty producing large studies in addition to processing many other 
reports and data inquiries. NTSB officials told us they would like to 
broaden the term ``safety studies'' to include not only the current 
studies of multiple accidents, but the research done for the other 
smaller safety-related reports and data inquiries. Such a term, they 
said, would better characterize the scope of their efforts to report 
safety information to the public. NTSB also developed new guidelines to 
address its completion of safety studies. Congressional reauthorization 
is an ideal time to obtain stakeholder input on whether a change in 
terminology like this would meet NTSB's legislative requirement.
---------------------------------------------------------------------------
    \9\ 49 U.S.C.  1116(b)(1).
---------------------------------------------------------------------------
NTSB Has Increased Use of the Training Center
    We made two recommendations for NTSB to increase its own and other 
agencies' use of the Training Center and to decrease the center's 
overall operating deficit (see fig. 5). The agency increased use of the 
center's classroom space from 10 percent in Fiscal Year 2006 to 80 
percent in Fiscal Year 2009. According to NTSB, it has sublease 
agreements with agencies of the Department of Homeland Security (DHS) 
to rent approximately three-quarters of the classroom space located on 
the first and second floors. The warehouse portion of the Training 
Center houses reconstructed wreckage from TWA Flight 800, damaged 
aircraft, and other wreckage. The Training Center provides core 
training for NTSB investigators and trains others from the 
transportation community to improve their practice of accident 
investigation. Furthermore, NTSB has hired a Management Support 
Specialist whose job duties include maximizing the Training Center's 
use and marketing its use to other agencies or organizations. The 
agency's actions to increase the center's use also helped increase 
total Training Center revenues from about $635,000 in Fiscal Year 2005 
to about $1,771,000 in Fiscal Year 2009. By reducing the center's 
leasing expenses--for example, by subleasing classrooms and office 
space at the center to other agencies--NTSB reduced the Training 
Center's annual deficit from about $3.9 million to about $1.9 million 
over the same time period.
Figure 5: Implementation Status of GAO Recommendations Related to 
        Training Center Use
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Source: GAO analysis of NTSB data.

    NTSB has made significant progress in achieving the intent of our 
recommendation to maximize the delivery of its core investigator 
curriculum at the Training Center by increasing the number of 
NTSBrelated courses taught at the Training Center (fig. 6). For example 
in 2008, 49 of the 68 courses offered at the Training Center were 
solely for NTSB employees.
Figure 6: NTSB Training Center
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: NTSB.

    NTSB has fully implemented our recommendation to increase use of 
the Training Center. NTSB subleased all available office space at its 
Training Center to the Federal Air Marshal Service (a DHS agency) at an 
annual fee of $479,000. NTSB also increased use of the Training 
Center's classroom space and thereby increased the revenues it receives 
from course fees and rents for classroom and conference space. From 
Fiscal Year 2006 through Fiscal Year 2009, NTSB increased other 
agencies' and its own use of classroom space from 10 to 80 percent, and 
increased revenues by over $1.1 million. For example, according to NTSB 
it has a sublease agreement with DHS to rent approximately one-third of 
the classroom space. NTSB considered moving certain staff from 
headquarters to the Training Center, but halted these considerations 
after subleasing all of the Training Center's available office space. 
NTSB decreased personnel expenses related to the Training Center from 
about $980,000 in Fiscal Year 2005 to $507,000 in Fiscal Year 2009 by 
reducing the center's full-time equivalent positions from 8.5 to 3.0 
over the same period. As a result of these efforts, from Fiscal Year 
2005 through Fiscal Year 2009, Training Center revenues increased 179 
percent while the center's overall deficit decreased by 51 percent. 
(Table 2 shows direct expenses and revenues for the Training Center in 
Fiscal Years 2004 through 2009.) However, the salaries and other 
personnel-related expenses associated with NTSB investigators and 
managers teaching at the Training Center, which would be appropriate to 
include in the Training Center's costs, are not included. NTSB 
officials told us that they believe the investigators and managers 
teaching at the Training Center would be teaching at another location 
even if the Training Center did not exist. Once NTSB has fully 
implemented its cost accounting system, it should be able to track and 
report these expenses.
 ----------------------------------------------------------------------------------------------------------------

  Table 2.--Direct Expenses and Revenues for NTSB's Training Center, Fiscal Years 2004 through 2009 (unaudited)
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year
                             -----------------------------------------------------------------------------------
                                  2004          2005          2006          2007          2008          2009
----------------------------------------------------------------------------------------------------------------
Expenses
Personnel related               $1,011,717      $978,591      $688,716      $466,582      $512,525      $506,503
Travel                             $24,428       $56,912       $31,009       $22,284       $35,572       $32,678
Space rental a                  $2,521,440    $2,500,896    $2,221,430    $2,286,660    $2,516,498    $2,342,653
Maintenance/repair of             $706,279      $238,203       $23,151      ($4,215)
 buildings b
Contract services               $2,204,880      $558,540      $287,873      $330,491      $635,300      $722,187
Miscellaneous expenses c           $42,258      $182,136       $57,099       $19,720       $77,399       $82,482
Total expenses                  $6,511,003    $4,515,279    $3,309,277    $3,121,521    $3,777,294    $3,686,503
Total earned revenue d            $258,760      $634,800      $651,191      $817,555    $1,630,910    $1,770,996
Overall deficit                -$6,252,243   -$3,880,479   -$2,658,086   -$2,303,966   -$2,146,374   -$1,915,507
Deficit when space rental      -$3,730,803   -$1,379,583     -$436,656      -$17,306     -$453,737     -$354,584
 expense is excluded
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of information from NTSB.
a NTSB leases the Training Center from George Washington University under a 20-year capital lease that will
  expire in 2021.
b The amount reported in the maintenance and repair category during Fiscal Year 2007 includes a refund of
  $28,377 to NTSB because of a reconciliation of utility costs, as required by the lease. According to NTSB
  officials, in recent years, maintenance and repair expenses have been reported in the contract services
  category.
c Includes expenses for items such as telephone, mail, photography services, printing, office supplies and
  equipment.
d Earned revenue includes imputed fees for NTSB students and sublease fees.

    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions you or other Members of the 
Subcommittee may have at this time.

    Senator Dorgan. Dr. Dillingham, thank you very much for 
being with us, and we appreciate the work that the Government 
Accountability Office does.
    As you know, I have and my colleagues have a request in to 
you, March 10th request to the GAO about icing, and we are 
specifically asking--and we expect, of course, to get the 
report when you complete it--what current regulations and 
practices are in place to the aviation industry to prevent or 
mitigate the aircraft icing?
    What roles do the NTSB and FAA have in developing and 
overseeing the implementation of aircraft icing prevention 
practices? To what extent has the FAA adopted recommendations 
to prevent icing? Has the FAA identified compliance problems 
and so on?
    So we are asking you all to do that. That is underway, as I 
understand it?
    Dr. Dillingham. Yes, sir.
    Senator Dorgan. Your discussion this morning is how does 
the NTSB function, and you have made recommendations. It seems 
to me that your evaluation is that the NTSB is a pretty good 
organization, doing pretty well. When you have developed 
approaches that you think can improve the role--the functioning 
and the management, they have taken steps reasonably quickly to 
address them. So that is heartening.
    Ms. Hersman, Chairman Hersman, let me ask you about cockpit 
voice recorders. Obviously, that question exists all over these 
days because you actually put out an advisory to the press that 
they were able to come and take photographs of the cockpit 
voice recorder the other day. And I saw the front page of a 
newspaper of a cockpit voice recorder photograph.
    Thirty minutes on the plane that was flying an hour and a 
half. Tell me your impression of what should be done with 
respect to cockpit voice recording or image recordings to 
enhance safety.
    Ms. Hersman. Chairman Dorgan, the Safety Board has made a 
number of recommendations and, with respect to the cockpit 
voice recorders, I can say there are some changes that are 
coming. Right now, they are solid state recorders that provide 
2 hours of recording time. And in fact, before we got the 
recorders delivered to our office, we were questioning whether 
or not it was a 30-minute or a 2-hour recorder.
    There is a requirement that FAA has put out that in 2010, 
new aircraft must be equipped with 2-hour voice recorders, and 
by 2012, all commercial aircraft will be required to be 
retrofitted with 2-hour voice recorders. The Safety Board also 
has recommendations with respect to video recorders in the 
cockpit. We are interested in trying to get more information 
from our accident investigations, and so we have made a 
recommendation about video recorders as well that has not yet 
been acted on.
    Senator Dorgan. Is there currently a prohibition by the FAA 
that you are aware of with respect to the personal electronic 
devices or personal computers while flying an airplane?
    Ms. Hersman. I believe that the FAA has a prohibition on 
operating electronic devices below 10,000 feet--the sterile 
cockpit rule. And we do know that this company had a policy 
against using personal computers on the flight deck.
    Now we want to be a bit careful in this area because there 
is a lot that is going on with technology, a lot of 
improvements that are happening in the cockpit, and there are 
also approvals for equipment such as electronic flight bags, 
which, in essence, really are laptops. And those electronic 
flight bags may be used as an alternative to a hard copy flight 
manual. There are also charts and other aids that might be 
stored in these electronic flight bags.
    And so, one of the things that we are very closely 
reviewing with respect to this incident investigation is on 
what this particular airline's company policies and procedures 
are. For those airlines that do use electronic flight bags and 
other electronic equipment on the flight deck, how do they 
control their use, and what are their rules and regulations 
with respect to electronic flight bags?
    Senator Dorgan. But when I dissect your answer, it sounds 
to me like there is a lot that needs to be done in this area 
because I think what you are saying is these are individual 
company policies. There is not a consistent FAA policy except 
for the sterile cockpit rule. We understand that. I mean, that 
doesn't just deal with electronics. That deals with discussions 
and visiting about other issues and so on.
    Let me ask a couple of other questions. Then I will turn to 
my colleagues because I will be able to stay here until the end 
of this and include all my questions for you, if you have the 
time.
    Operator fatigue in a number of areas, not just airlines, 
but a number of areas seems to be a consistent factor in 
accidents across all modes of transportation. Tell me the work 
that you are doing in those areas and the urgency with which 
you think that companies and--I should say agencies first and 
companies second are complying with that work, dealing with 
fatigue.
    Ms. Hersman. Fatigue is really an insidious issue in the 
transportation industry. It has been on our Most Wanted List 
since the List's inception. In every accident that we 
investigate, we look for fatigue. Unfortunately, we do find 
these hallmarks of fatigue all too often.
    We believe that the foundation of addressing fatigue is 
good hours-of-service regulations, making sure that people get 
adequate work-rest cycles. But we also think that a multi-
pronged approach needs to be taken to fatigue. We need to make 
sure that anybody in the cockpit or in the locomotive cab or 
behind the wheel is well rested and ready for duty.
    That also entails dealing with prescription drugs and over-
the-counter drugs that might have a sedating effect, as well as 
dealing with medical issues that individuals might have, such 
as sleep apnea, which might lead to excessive daytime 
sleepiness. Those things need to be addressed so that people 
are alert when they are on duty.
    We also have recommended that companies have policies that 
are nonpunitive. If people are tired or fatigued, they can call 
in and be marked as being off duty, without fear of being 
penalized for it. And so, we think a multi-pronged approach is 
best, and we have made a number of recommendations to that end.
    This committee has actually been very helpful. Last year, 
you passed the Rail Safety Improvement Act, revising hours-of-
service in the rail industry for the first time in decades. We 
know you are taking a close look at it on the aviation side as 
well, and we are encouraged by the interest in the work that 
the FAA is doing.
    Senator Dorgan. One of the most significant issues here is 
enforcement, not just recommendations, but with what 
enforcement do we see the agencies and also the carriers 
implement recommendations.
    Two other quick points. One, last evening, when I was doing 
some research on these issues on the Internet, I came across a 
description of the NTSB investigation of the crash of the 
charter flight by our late colleague Senator Wellstone, and it 
was pretty unbelievable to me to read what I read last night. I 
had not previously read that.
    But fatigue was a direct--I mean, there were errors in 
addition. But I mean, this is a commercial pilot that was 
flying our friend around, who had worked through half the 
night, then a 4-hour shift at a nursing home, and then got 
behind the controls of an airplane. Fatigue clearly played a 
role.
    And the question is who is enforcing all these rules? I 
mean, when you get on an airplane, whether it is a charter 
plane or a commercial plane, is there adequate enforcement? Now 
just one very quick question, and then I am going to turn to my 
colleagues.
    The families of victims of accidents I understand do not 
have a representative that participates in any NTSB 
investigation, while the carriers, in fact, with respect to an 
airline crash, airlines and aircraft manufacturers do have 
participants in the investigation because of their technical 
expertise and capability. I fully understand that.
    Some have suggested to the Committee that victims' families 
should be allowed to have a technical expert participate on 
their behalf as well. Your impression of that?
    Ms. Hersman. Senator, one of the things that we do in our 
party process is really draw on resources that we think can 
help us with our accident investigation. The only party to an 
aviation accident investigation that is required by statute is 
the Federal Aviation Administration. And so, we designate 
additional parties because we think they can assist us in the 
investigation.
    We use our parties to conduct teardowns, to do simulations, 
to reconstruct the equipment, and to look at exemplar 
equipment. For example, in the WMATA accident investigation, we 
were able to take an exemplar train, and run it across those 
same tracks at the same time of day as the accident. We need 
the parties to look at some of the equipment, and we need their 
expertise. We need to talk to people who operate that aircraft 
every day and under the company's policies to understand what 
they know.
    I am very respectful of the needs and desires of the 
families to get more information, and that is why I have really 
encouraged additional transparency and accountability. We will 
provide factual information when it becomes available early on 
in the investigation. We will open our dockets earlier, and we 
will make all of our dockets available on our website so that 
this information can be accessed by anyone.
    We don't want to turn our investigations into an extension 
of litigation. We really want to make sure that we are trying 
to get to the issues that we need to get to and develop them. 
And we hope that we can be the best advocates for the public 
and the families, too.
    Senator Dorgan. Thank you.
    I have some additional questions, but let me go to my 
colleagues.
    Senator DeMint?
    Senator DeMint. Thank you, Mr. Chairman.
    Thank you both for your service. Chairman Hersman, just a 
couple of quick questions.
    Often when I am calling a customer service department of a 
major company for some reason on the phone, before I get 
someone, they will say, ``this call may be recorded for quality 
purposes,'' which suggests many companies randomly review the 
calls to ensure the quality. And I know you made it very clear 
that the reason to investigate an accident after it happens is 
to try to keep those things from happening again.
    And just for clarification for me, the current use of 
cockpit voice recorders, do airlines have access to randomly 
review cockpit conversations, or if an airline suspects 
problems in the cockpit, do they have access to review these 
recorders regularly for quality purposes?
    Ms. Hersman. I think that would probably be a question best 
directed to the airline companies or to the FAA. The only way 
we really get involved is after an accident, and we have 
specific statutory guidance about how we handle cockpit voice 
recorders when we get them and how we protect the information 
they contain.
    So our focus isn't necessarily on random monitoring. Our 
focus is more on post accident.
    Senator DeMint. So you don't know whether airlines can use 
the voice recorders as a way to prevent accidents. You just 
know it can be used once a crash occurs. Is that right?
    Ms. Hersman. The way that the Safety Board uses them is 
post event, and I think it would be up to the airlines and 
their unions, as well as policymakers such as yourselves, to 
determine whether there needs to be an extension of that use.
    Our position is that we want them for accident 
investigation purposes, and we want to be very careful not to 
create a chilling effect on anyone willing to discuss things in 
order to be helpful to our accident investigators.
    Senator DeMint. OK. All right.
    Thank you, Mr. Chairman. That is all I have.
    Senator Dorgan. Senator Lautenberg?
    Senator Lautenberg. Thank you, Mr. Chairman.
    I wanted to discuss several things in different modes of 
transportation. One of them, of course, is the problem that we 
find with crashes involving large trucks, and your agency 
estimates that between 30 and 40 percent of these crashes 
involve fatigue.
    Now you are familiar with electronic onboard recorders and 
the desire to combat truck driver fatigue to make our highways 
safer. What is being done, to your knowledge, to implement 
those kinds of installations to make our roads safer?
    Ms. Hersman. Specifically with respect to EOBRs?
    Senator Lautenberg. The onboard computers and also to make 
certain that truck driver fatigue, that there is enough time 
between trips that makes--at least try to make certain that our 
people are not worn out before they start their route on a 
large truck.
    Ms. Hersman. We have identified fatigue in a significant 
number of motorcoach and heavy truck accidents. Unfortunately, 
about 7 percent of drivers pulled over in random roadside 
inspections have violations of their hours-of-service log 
books. Either they are not keeping good log books or they have 
violated the hours-of-service requirement. Unfortunately, in 
accident investigations, we often find two sets of log books.
    In a recent accident in Chelsea, Michigan, we found that 
the driver had the log books that he showed to the enforcement 
officials at the roadside inspections, but he also had a set of 
real log books where he actually kept track of his hours. We 
know that there are many challenges in the over-the-road 
trucking business. We believe, and we have commented to FMCSA 
that we believe, mandatory installation of electronic onboard 
recorders is essential for effective enforcement.
    We believe that all vehicles need to be equipped with 
EOBRs. Unfortunately, the rule that the FMCSA has put forward 
is just a de minimis enforcement tool, where you have to be 
audited and get an unsatisfactory audit 2 years in a row in 
order to be required to have recorders.
    Senator Lautenberg. So then might you make recommendations 
that would be a little more severe in terms of penalties, 
violations of those conditions? And also to insist that the 
onboard recorders be put into place, that people want to use 
the interstate highway system?
    Ms. Hersman. We do have recommendations on the recorders 
that are on our Most Wanted List. We want them for all 
vehicles.
    Senator Lautenberg. Someone is killed by a drunk driver 
every 45 minutes. One way to combat it is through the use of 
ignition interlocks, and an independent task force found that 
the ignition interlocks led to a decrease of 73 percent in the 
rearrest rate of drunk drivers when they had the device 
installed on their cars.
    What effect might we get from mandating ignition interlocks 
for all of those convicted of drunk driving offenses and then 
to continue to reduce those repeat drunk driving incidents by 
having these things in place?
    Ms. Hersman. The Safety Board recognizes that ignition 
interlocks are effective tools, and we have made 
recommendations to the states which are also on our Most Wanted 
List for a multi-pronged approach. Of that approach, ignition 
interlocks is one tool that they could use.
    Senator Lautenberg. Yes, I know that you don't write 
legislation. But might we enlist your help? I wrote the law to 
raise the drinking age to 21. I subsequently wrote the .08 
restriction for definition of driving under the influence. And 
we have saved 1,500 people a year. This has been going on since 
1984 with the age restriction.
    With that kind of a result, why wouldn't we insist that 
when there are opportunities to make it more difficult for 
those not well trained enough to make certain that we are on 
guard here, and the enforcement tools are really heavy, and 
there are penalties for not complying within states. That is 
how we got those two pieces of legislation into place.
    Incentives didn't work, and right now, you know we are 
examining whether or not we go ahead and write law including 
incentives as opposed to punishment. And I think that the 
punishment side works in these cases.
    Thank you. That was not a question, a statement.
    Ms. Hersman. OK. Thank you.
    Senator Dorgan. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    My questions really start out--since the incident with the 
flyover started in Minnesota and somehow went to Wisconsin and 
came back, I wondered, as you have released some preliminary 
investigation results here, if you have any safety 
recommendations that could come out of this. I know you 
discussed the nuances with laptops and the fact that there may 
be a good use for computers in the cockpit and the possibility 
of a ban, I suppose, on private use of laptops.
    But my other question was about one of the things that may 
have happened here was the pilots just sort of disregarded--we 
are not sure because we don't have the final recommendations--
disregarded the radio transmissions. Or didn't have--I don't 
know how that happened. They weren't responding to them. Would 
a chime or some kind of a loud buzzer in the cockpit have maybe 
alerted them so that they could have been more responsive and 
figured out what was going on here?
    Ms. Hersman. This incident is still under investigation, 
so, I have to be careful not to comment specifically on it. But 
I can tell you that alerters are used consistently in the 
locomotive cabs of trains. We have made recommendations about 
alerters in trains because we have seen a lot of fatigue 
accidents in the rail industry.
    With respect to aviation, we do know that there is 
technology in next-generation aircraft. I think it is really 
more focused on pilots who might be inattentive because they 
might be asleep or otherwise not paying attention.
    There is alerter technology that can be used. If some of 
the devices are not touched within a certain period of time or 
there are no inputs, then a master caution or a warning light 
might come on to prompt them to respond.
    Senator Klobuchar. Right. If this was, in fact, distracted 
flying at 37,000 feet, I would think it would be helpful, as 
well, if they were not--somehow became engaged and weren't 
listening to those radio communications, if there were radio 
communications, I would think maybe some kind of a loud noise 
would have helped here. And I know, I am sure, for the flying 
public, they are thinking why would we even need this? But we 
are just trying to figure out ways to prevent this from 
happening again.
    One question about the process here. And again, I have 
always said that I appreciate the NTSB's investigations. Is it 
normal to suddenly come out with preliminary--I am just used to 
being a prosecutor where you wait until the investigation is 
done, and then you put the complaint out there. And then 
everyone is comfortable with what the findings are.
    And I know you have been doing this very quickly, which we 
appreciate. But is that the normal activity to do a preliminary 
and then do a final one a few days later or whenever you are 
done with it?
    Ms. Hersman. One of the things that the Congress and the 
public expects from us, as Chairman Dorgan said, is whenever an 
accident occurs, the NTSB is on their way to investigate. And I 
think that people expect us to tell them what we find when we 
are there.
    We release factual information. We don't release 
conclusions. We don't release probable cause. We don't release 
that type of information early on in the investigation. We 
release factual information only. The parties participate in 
the development of that factual information. When we launch an 
investigation, we have regular meetings each day and go over 
the information that is collected throughout the day.
    When I launched to the Hudson River midair collision in 
August, I did a press conference on scene within hours. I think 
that is what the public expects and demands from the Safety 
Board. We don't release conclusions, we release factual 
information.
    I can tell you that, since becoming Chairman, I have pushed 
our staff for increased transparency, accountability, and 
integrity. What I want to see is the Safety Board release 
information quickly so the families and others have access to 
it, but also to issue timely recommendations. As soon as we 
find that there is a problem that we think we need to identify, 
we shouldn't wait a year or more to issue a recommendation.
    Senator Klobuchar. And along those lines, Chairman, how--
and one of the frustrations that we have not necessarily with 
the NTSB, but just with the whole system, being here 2\1/2\ 
years, I think the average takes 3 to 5 years for some of these 
safety recommendations to be implemented. Again, we are still 
working some of the things that came out of the Buffalo flight 
and the training of regional pilots and the fatigue issue. What 
do you think we can to do improve that lag time?
    Ms. Hersman. Well, actually, I think the Congress is 
probably one of the most important catalysts in improving the 
lag time for our recommendations to be implemented.
    Senator Klobuchar. Is that a nice way of saying the reason 
for the delay?
    Ms. Hersman. Well, I would say that, frankly, the 
regulatory process itself, contributes greatly to the delays. 
We often see rulemakings take years. They send proposed rules 
to negotiated rulemaking committees, where they often sit for 
years. Sometimes they don't even come out with recommendations: 
they come out with no recommendations.
    Senator Klobuchar. Yes, I have actually heard people say it 
might be easier to do things legislatively than through the 
rulemaking process because the rulemaking process is so 
cumbersome. And you wish it should be the opposite, should take 
longer to pass a bill, I would think.
    And so, you would suggest some kind of changes to the 
rulemaking process to make this easier?
    Ms. Hersman. I think, given the frustration that everyone 
has on all sides of this issue, I think it probably would not 
be a bad idea to review the Administrative Procedures Act and 
try to understand why it takes so long for some of these rules 
to be completed. And it is not just at the FAA; it is across 
all model agencies.
    Senator Klobuchar. OK. Very good. Thank you very much.
    Dr. Dillingham. Senator, if I could?
    Senator Klobuchar. Oh, Dr. Dillingham, please. I am sorry.
    Dr. Dillingham. I just wanted to add to that that the 
Chairman mentioned that we were doing an icing, look at icing 
issues for this committee. A part of that study is to look at 
why it takes so long for NTSB rules to be implemented because 
the icing rules are 10 to 12 years old that were not 
implemented.
    So, hopefully, as a product of the work that we are doing 
for this subcommittee, we will be able to add some insight into 
what might be done to improve the rulemaking process and speed 
the action that NTSB offers.
    Senator Klobuchar. You said that was a 10- to 12-year delay 
on the deicing rules?
    Dr. Dillingham. It has been 10 or 12 years on the deicing 
rule, but it has been that long on a number of other rules as 
well.
    Senator Klobuchar. That is unbelievable. Thank you very 
much.
    Senator Dorgan. And unacceptable. I mean, when we started, 
I talked about the 1999 upbraiding of the FAA by the NTSB, 10 
years prior to the Colgan crash, on icing. And in fact, again, 
the NTSB specifically designated the Dash 8 as an example. So I 
mean, the Senator from Minnesota raises an important point.
    Senator Begich? I am recognizing by the early bird rule. 
Senator Begich?
    Senator Begich. Thank you very much. Thank you, Mr. 
Chairman.
    I was just intrigued by the conversation that was just 
happening here, and I guess is there--you know, when we were 
looking at the amount of recommendations you all have been 
giving, at least our calculation, you do a fairly good job. 
About 82 percent of them are implemented. But there is a big 
chunk, which, when you tally it up, it is about 2,300, give or 
take a few, that have not been implemented.
    With regards to the rules that are pending on regulations, 
is there kind of a master list that you maintain that are kind 
of high priority, that are ones that have been pending for a 
long period? I mean, is there such a document that exists that 
this committee can kind of review just to have a better 
understanding?
    I know you have the Most Wanted List. I saw you grab that. 
But I mean of the kind of when it went into the system, why it 
is not out. I know you are going to do some piece of that. But 
is there something that--deicing is one. Of course, in Alaska, 
that is not only life and death, it is the way of life. We 
understand it very clearly, the importance of it from small 
planes to large planes.
    But is there such a list that you have done or, Dr. 
Dillingham, you have done or will be doing?
    Ms. Hersman. Senator, we have about 800 open 
recommendations right now, and about half of those are in the 
aviation area. Our Most Wanted List is a way we can prioritize 
for the public what recommendations we believe are important, 
and thus need to be implemented.
    But certainly if there is an issue area, icing or another 
area that you are interested in, we can pull all of the 
accidents in that area----
    Senator Begich. So those are available?
    Ms. Hersman. Yes. We can get the oldest ones and get those 
for you, what is still open.
    [The information referred to follows:]

    Please see attached list of 32 open NTSB recommendations issued 
prior to 2000. The information includes the recommendation text, the 
date it was issued, the status of the recommendation, and a brief 
summary of the accident that prompted the recommendation.
                         Recommendation Report
                       Monday, November 30, 2009
       Issue Date: 1/1/1967 -12/31/1999 Status: O* Addressee: FAA
 Log Number 2392Issue Date 3/25/1993The National Transportation Safety Board has endorsed and strongly
 supported Federal Aviation Administration (FAA) and industry programs
 to develop and implement an airborne collision avoidance system that
 will function independently of, and serve as a safety back-up to, the
 ground-based air traffic control (ATC) system. The development program
 began in the late 1960s and, after undergoing many evolutionary changes
 in system design and technology, culminated in the FAA's committal to
 the current version of the traffic alert and collision avoidance system
 (TCAS) in 1981. The Safety Board was also supportive of the phased
 installation program for the TCAS II, established by regulation in
 April 1990, which requires that all large air carrier airplanes be
 equipped with the TCAS II by December 30, 1993.                            Overall Status         Priority
Recommendation # A-93-046   OAAR                   Class IIThe NTSB recommends that the Federal Aviation Administration: amend 14
 CFR Parts 121, 125, and 129 to require Traffic Alert and Collision
 Avoidance System (TCAS) flight simulator training for flightcrews
 during initial and recurrent training. This training should familiarize
 the flightcrews with TCAS presentations and require maneuvering in
 response to TCAS visual and aural alerts.  FAA                            Open Acceptable Alternate Response
------------------------------------------------------------------------
Log Number 2479Issue Date 3/2/1994Since December 1992, there have been five accidents and incidents in
 which an airplane on approach to landing encountered the wake vortex of
 a preceding Boeing 757 (B-757). Thirteen occupants died in two of the
 accidents. The encounters, which occurred during visual conditions,
 were severe enough to create an unrecoverable loss of control for a
 Cessna Citation, a Cessna 182, and an Israel Aircraft Industries
 Westwind. Additionally, there were significant, but recoverable losses
 of control for a McDonnell Douglas MD-88 and a 8737 (both required
 immediate and aggressive flight control deflections by their
 flightcrews). Safety Board data show that between 1983 to 1993, there
 were at least 51 accidents and incidents in the United States,
 including the 5 mentioned above, that resulted from probable encounters
 with wake vortices. In these 51 encounters, 27 occupants were killed, 8
 were seriously injured, and 40 airplanes were substantially damaged or
 destroyed.                            Overall Status         Priority
Recommendation # A-94-056   OAA                    Class IIIThe NTSB recommends that the Federal Aviation Administration: require
 manufacturers of turbojet, transport category airplanes to determine,
 by flight test or other suitable means, the characteristics of the
 airplanes' wake vortices during certification.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2501Issue Date 5/18/1994        Guantanamo Bay CUB     8/18/1993On August 18, 1993, at 1656 Eastern Daylight Time (EDT), a Douglas DC-8-
 61 freighter, N814CK, registered to American International Airways
 (AIA), Inc., d/b/a Connine Kalitta Services, Inc., and operating as AIA
 Flight 808, collided with level terrain approximately 1/4 mile from the
 approach end of runway 10, after the captain lost control of the
 airplane while approaching the Leeward Point Airfield at the U.S. Naval
 Air Station, Guantanamo Bay, Cuba. The airplane was destroyed by impact
 forces and post-accident fire, and the three flight crewmembers
 sustained serious injuries. Visual meteorological conditions prevailed,
 and an instrument flight rules (IFR) flight plan had been filed. The
 flight was conducted under 14 Code of Federal Regulations (CFR), Part
 121, Supplemental Air Carriers, as an international, nonscheduled,
 military contract flight.                            Overall Status         Priority
Recommendation # A-94-107   OAA                    CLASS IIThe NTSB recommends that the Federal Aviation Administration: revise 14
 CFR, Section 121.445, to eliminate subparagraph (c), and require that
 all flight crewmembers meet the requirements for operation to or from a
 special airport, either by operating experience or pictorial means.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2536Issue Date 11/30/1994The National Transportation Safety Board has had a longstanding interest
 in commuter airline safety and has issued safety recommendations in the
 past seeking various actions by government and industry to address
 needed safety improvements. The recommendations followed the Board's
 1972 study of air taxi safety, its 1980 study of commuter airline
 safety, and investigations of accidents involving commuter airline
 operations, in response to the recommendations and through other
 initiatives taken by government and industry, regulatory revisions and
 other actions have resulted in a greatly improved safety record for
 scheduled passenger operations conducted under Title 14 Code of Federal
 Regulations (14 CFR) Part 135: the accident rate per 100,000 departures
 in 1993 was one-fourth the accident rate observed in 1980. In a 26-
 month period from December 1991 to January 1994, there were 14 fatal
 accidents involving scheduled commuter flights and commuter airline
 training flights; 56 persons were killed.                            Overall Status         Priority
Recommendation # A-94-194   OUA                    Class IIThe NTSB recommends that the Federal Aviation Administration: revise the
 Federal Aviation Regulations contained in 14 CFR Part 135 to require
 that pilot flight time accumulated in all company flying conducted
 after revenue operations-such as training and check flights, ferry
 flights and repositioning flights-be included in the crewmember's total
 flight time accrued during revenue operations.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-94-199   OAAR                   Class IIThe NTSB recommends that the Federal Aviation Administration: revise the
 certification standards for Part 25 and for Part 23 (commuter category)
 aircraft to require that a flight simulator, suitable for flightcrew
 training under Appendix H of Part 121, be available concurrent with the
 certification of any new aircraft type.  FAA                            Open Acceptable Alternate Response
------------------------------------------------------------------------
Log Number 2552Issue Date 5/16/1995        Charlotte NC           7/2/1994On 7/2/94, about 1843 Eastern Daylight Time, a Douglas DC-9-31, N954VJ,
 operated by U.S. Air, Inc., as Flight 1016, collided with trees and a
 private residence near the Charlotte/ Douglas International Airport,
 Charlotte, North Carolina, shortly after the flightcrew executed a
 missed approach from the instrument landing system approach to Runway
 18R. The captain, first officer, one flight attendant, and one
 passenger received minor injuries. Two flight attendants and 14
 passengers sustained serious injuries. The remaining 37 passengers
 received fatal injuries. The airplane was destroyed by impact forces
 and a post-crash fire. Instrument meteorological conditions prevailed
 at the time of the accident, and an instrument flight rules flight plan
 had been filed. Flight 1016 was being conducted under 14 Code of
 Federal Regulations Part 121 as a regularly scheduled passenger flight
 from Columbia, South Carolina, to Charlotte.                            Overall Status         Priority
Recommendation # A-95-048   OAA                    Class IIThe NTSB recommends that the FAA: in cooperation with the National
 Weather Service, reevaluate the central weather service unit program
 and develop procedures to enable meteorologists to disseminate info
 about rapidly developing hazardous weather conditions, such as
 thunderstorm and low altitude windshear, to FAA TRACON's and tower
 facilities immediately upon detection.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2577Issue Date 11/14/1995       Kansas City MO         2/16/1995On Thursday, 2/16/95, at 2027 Central Standard Time, a Douglas DC-8-63
 N782AL, operated by Air Transport International (ATI), was destroyed by
 ground impact and fire during an attempted takeoff at the Kansas City
 International Airport, Kansas City, Missouri. The three flight
 crewmembers were fatally injured. Visual meteorological conditions
 prevailed, and an instrument flight rules flight plan was filed. The
 flight was being conducted as a ferry flight under Title 14 Code of
 Federal Regulations (CFR) Part 91.                            Overall Status         Priority
Recommendation # A-95-113   OUA                    Class IIThe NTSB recommends that the FAA: finalize the review of current flight
 and duty time regulations and revise the regulations, as necessary,
 within 1 year to ensure that flight and duty time limitations take into
 consideration research findings in fatigue and sleep issues. The new
 regulations should prohibit air carriers from assigning flightcrews to
 flights conducted under 14 Code of Federal Regulations (CFR) Part 91
 unless the flightcrews meet the flight and duty time limitations of 14
 CFR Part 121 or other appropriate regulations.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2581Issue Date 12/1/1995The NTSB has had a longstanding interest concerning aviation safety in
 Alaska. One segment of Alaska aviation, the air taxi industry, was the
 subject of a special study published in September 1980. The Board
 concluded in the study that three factors contributed most to the high
 air taxi accident rates in Alaska: (1) the ``bush syndrome,'' defined
 as an attitude of air taxi operators, pilots and passengers ranging
 from their casual acceptance of risks to their willingness to take
 unwarranted risks: (2) inadequate airfield facilities and inadequate
 communications of airfield conditions; and (3) inadequate weather
 observations, inadequate communications of the weather info, and
 insufficient navigation aids.                            Overall Status         Priority
Recommendation # A-95-124   OUA                    Class IIThe NTSB recommends that the FAA: require, 12/31/97, operators that
 conduct scheduled and nonscheduled services under 14 CFR Part 135 in
 Alaska to provide flightcrews, during initial and recurrent training
 programs, aeronautical decisionmaking and judgment training that is
 tailored to the company's flight operations and Alaska's aviation
 environment, and provide similar training for FAA principal operations
 inspectors who are assigned to commuter airlines and air taxi in
 Alaska, so as to facilitate the inspectors' approval and surveillance
 of the operators' training programs.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-95-125   OUA                    Class IIThe NTSB recommends that the FAA: develop appropriate limitations on
 consecutive days on duty, and duty hours per duty period for
 flightcrews engaged in scheduled and nonscheduled commercial flight
 operations, and apply consistent limitations in Alaska and the
 remainder of the United States.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2529AIssue Date 8/15/1996        Roselawn IN            10/31/1994On October 31, 1994, about 1600 Central Standard Time a Simmons Airlines
 Avions De Transport Regional ATR-72-210, operating as American Eagle
 Flight 4184, crashed into a soybean field 3 miles south of Roselawn,
 Indiana. The flight was on an instrument flight rules flight plan from
 Indianapolis, Indiana, to O'Hare International Airport, Chicago,
 Illinois, and had been placed in a holding pattern over Roselawn
 because of weather delays being experienced at O'Hare. The airplane's
 primary and secondary radar returns disappeared from the air traffic
 control radar shortly after the flight was cleared to continue the
 holding pattern and to descend from 10,000 to 8,000 feet. Witnesses
 observed the airplane descend out of a low overcast and strike the
 ground in a steep nose-down attitude. All 64 passengers and 4
 crewmembers were killed in the accident. The Safety Board investigated
 one such event that occurred on December 22, 1988, at Mosinee,
 Wisconsin.                            Overall Status         Priority
Recommendation # A-96-051   OAA                    Class IIThe NTSB recommends that the FAA: revise the existing aircraft icing
 intensity reporting criteria (as defined in the Aeronautical
 Information Manual (AIM) and other FAA literature) by including
 nomenclature that is related to specific types of aircraft, and that is
 in logical agreement with existing Federal Aviation Regulations (FARS).  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-96-054   OUA                    Class IIThe NTSB recommends that the FAA: revise the icing criteria published in
 14 Code of Federal Regulations (CFR), Part 23 and 25, in light of both
 recent research into aircraft ice accretion under varying conditions of
 liquid water content, drop-size distribution, and temperature, and
 recent development in both the design and use of aircraft. Also, expand
 the Appendix C icing certification envelope to include freezing drizzle/
 freezing rain and mixed water/ice crystal conditions, as necessary. A-
 96-54 supersedes Recommendations A-81-116 and 118.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-96-056   OUA                    Class IIThe NTSB recommends that the FAA: revise the icing certification testing
 regulation to ensure that airplanes are properly tested for all
 conditions in which they are authorized to operate or are otherwise
 shown to be capable of safe flight into such conditions. If safe
 operations cannot be demonstrated by the manufacturer, operational
 limitation should be imposed to prohibit flight in such conditions and
 flightcrews should be provided with the means to positively determine
 when they are in icing conditions that exceed the limits for aircraft
 certification.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-96-058   OAA                    Class IINTSB recommends that the FAA: develop an icing certification test
 procedure similar to the tailplane icing pushover test to determine the
 susceptibility of airplanes to aileron hinge moment reversals in the
 clean and iced-wing conditions. Revise 14 CFR Part 23 and 25 icing
 certification requirements to include such a test.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-96-060   OAAR                   Class IIThe NTSB recommends that the FAA: revise 14 CFR Parts 91.527 and 135.227
 to ensure that the regulations are compatible with the published
 definition of severe icing, and to eliminate the implied authorization
 of flight into severe icing conditions for aircraft certified for
 flight in such conditions.  FAA                            Open Acceptable Alternate Response
------------------------------------------------------------------------
Log Number 2612Issue Date 10/16/1996       Buga COL               12/20/1995On 12/20/95, about 2142 Eastern Standard Time, American Airlines (AAL)
 Flight 965, a regularly scheduled passenger flight from Miami, Florida,
 to Cali, Colombia, struck trees and then crashed into the side of a
 mountain near Buga, Colombia, in night, visual meteorological
 conditions, while descending into the Cali area. The airplane crashed
 33 miles northeast of the Cali (CLO) Very High Frequency
 Omnidirectional Radio Range (VOR) navigation aid. The airplane was
 destroyed, and all but four of the 163 passengers and crew on board
 were killed.                            Overall Status         Priority
Recommendation # A-96-095   OAA                    Class IIThe NTSB recommends that the FAA: develop a controlled flight into
 terrain training program that includes realistic simulator exercises
 comparable to the successful windshear and rejected takeoff training
 programs and make training in such a program mandatory for all pilots
 operating under 14 CFR 121.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2304AIssue Date 10/18/1996       Colorado Springs CO    3/3/1991On March 3, 1991, at 0944 Mountain Standard Time, United Airlines Flight
 585, a Boeing 737-291 airplane, crashed during an approach to the
 Colorado Springs, Colorado, airport. The crew of 5 and the 20
 passengers were killed. The airplane was destroyed by the impact and a
 post-crash fire. The weather was clear with unlimited visibility. There
 were windshear reports during the day. At the time of the accident the
 surface winds were reported to be out of the northwest at 20 knots
 gusting to 28. The Safety Board has not determined the cause(s) of the
 accident and an investigation of airframe, operational and weather
 factors is continuing.                            Overall Status         Priority
Recommendation # A-96-120   OUAThe NTSB recommends that the FAA: require 14 CFR Part 121 and 135
 operators to provide training to flightcrews in the recognition of and
 recovery from unusual attitudes and upset maneuvers, including upsets
 that occur while the aircraft is being controlled by automatic flight
 control systems, and unusual attitudes that result from flight control
 malfunctions and uncommanded flight control surface movements.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2654Issue Date 9/9/1997         Miami FL               5/11/1996On 5/11/96, about 1415 Eastern Daylight Time, a McDonnell Douglas DC-9-
 32 crashed into the Everglades swamp shortly after takeoff from Miami
 International Airport, Miami, Florida. The airplane, N904VJ, was
 operated by Valujet Airlines, Inc., as Valujet Flight 592. Both pilots,
 the three flight attendants, and all 105 passengers were killed. Before
 the accident, the flightcrew reported to air traffic control that it
 was experiencing smoke in the cabin and cockpit. Visual meteorological
 conditions existed in the Miami area at the time of the takeoff. The
 destination of the flight was Hartsfield International Airport,
 Atlanta, Georgia. Flight 592 was on an instrument flight rules flight
 plan.                            Overall Status         Priority
Recommendation # A-97-071   OUAThe NTSB recommends that the FAA: review the issue of personnel fatigue
 in aviation maintenance; then establish duty time limitations
 consistent with the current state of scientific knowledge for personnel
 who perform maintenance on air carrier aircraft.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2653Issue Date 8/29/1997        Flushing NY            10/19/1996About 1638 Eastern Daylight Time, on 10/19/96, a McDonnell Douglas MD-
 88, N914DL, operated by Delta Airlines, Inc., as Flight 554, struck the
 approach light structure and the end of the runway deck during the
 approach to land on Runway 13 at the LaGuardia Airport, in Flushing,
 New York. Flight 554 was being operated under the provisions of 14 Code
 of Federal Regulations (CFR) Part 121, as a scheduled, domestic
 passenger flight from Atlanta, Georgia, to Flushing. The flight
 departed the Williams B. Hartsfield International Airport at Atlanta
 Georgia, about 1441, with two flightcrew members, three flight
 attendants, and 58 passengers on board. Three passengers reported minor
 injuries; no injuries were reported by the remaining 60 occupants. The
 airplane sustained substantial damage to the lower fuselage, wings
 (including slats and flaps), main landing gear, and both engines.
 Instrument meteorological conditions prevailed for the approach to
 Runway 13; Flight 554 was operating on an instrument flight rules
 flight plan.                            Overall Status         Priority
Recommendation # A-97-092   OUAThe NTSB recommends that the FAA: expedite the development and
 publication specific criteria and conditions for the classification of
 special airports; the resultant publication should include specific
 remarks detailing the reason(s) an airport is determined to be a
 special airport, and procedures for adding and removing airports from
 special airport.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-97-093   OUAThe NTSB recommends that the FAA: develop criteria for special runways
 and/or special approaches giving consideration to the circumstances of
 this accident and any unique characteristics and special conditions at
 airport (such as those that exist for the approaches to runways 31 and
 13 at Laguardia Airport) and include detailed pilot qualification
 requirements for designated special runways or approaches.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-97-094   OUAThe NTSB recommends that the FAA: once criteria for designating special
 airports and special runways and/or special approaches have been
 developed as recommended in Recommendations A-97-92 and -93, evaluate
 all airports against that criteria and update special airport
 publications accordingly.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2610BIssue Date 4/7/1998         East Moriches NY       7/17/1996On 7/17/96, about 2031 Eastern Daylight Time, a Boeing 747-131, N93-119,
 operated as Trans World Airlines Flight 800 (TWA800), crashed into the
 Atlantic Ocean, about 8 miles south of East Moriches, New York, after
 taking off from John F. Kennedy International Airport (JFK), Jamaica,
 New York. All 230 people aboard the airplane were killed. The airplane,
 which was operated under Title 14 Code of Federal Regulations (CFR)
 Part 121, was bound for Charles de Gaulle International Airport (CDG),
 Paris, France. The flight data recorder (FDR) and cockpit voice
 recorder (CFR) ended simultaneously, about 13 minutes after takeoff.
 Evidence indicates that as the airplane was climbing near 13,800 feet
 mean sea level (MSL), an in-flight explosion occurred in the center
 wing fuel tank (CTW); the CWT was nearly empty.                            Overall Status         Priority
Recommendation # A-98-036   OAAThe NTSB recommends that the FAA: conduct a survey of fuel quantity
 indication system probes and wires in Boeing 747s equipped with systems
 other than Honeywell Series 1-3 probes and compensators and in other
 model airplanes that are used in Title 14 Code of Federal Regulations
 Part 121 service to determine whether potential fuel tank ignition
 sources exist that are similar to those found in the Boeing 747. The
 survey should include removing wires from fuel probes and examining the
 wires for damage. Repair or replacement procedures for any damaged
 wires that are found should be developed.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-98-038   OAAThe NTSB recommends that the FAA: require in Boeing 747 airplanes, and
 in other airplanes with fuel quantity indication system (FQIS) wire
 installations that are co-routed with wires that may be powered, the
 physical separation and electrical shielding of FQIS wires to the
 maximum extent possible.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-98-039   OAAThe NTSB recommends that the FAA: require, in all applicable transport
 airplane fuel tanks, surge protection systems to prevent electrical
 power surges from entering fuel tanks' fuel quantity indication system
 wires.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2706Issue Date 7/10/1998        Miami FL               8/7/1997On 8/7/97, at 1236 Eastern Daylight Time, a Douglas DC-8-61, N27UA,
 operated by Fine Airlines Inc. (Fine Air) as Flight 101, crashed after
 takeoff from Runway 27R at Miami International Airport (MIA) in Miami,
 Florida. The three flightcrew members and one security guard on board
 were killed, and a motorist was killed on the ground. The airplane was
 destroyed by impact and a post-crash fire. The cargo flight, with a
 scheduled destination of Santo Domingo, Dominican Republic, was
 conducted on an instrument flight rules flight plan and operated under
 Title 14 Code of Federal Regulations (CFR) Part 121 as a supplemental
 air carrier.                            Overall Status         Priority
Recommendation # A-98-044   OAA
The NTSB recommends that the FAA: require all 14 Code of Federal
 Regulations Part 121 air carriers to provide flightcrews with
 instruction on mistrim cues that might be available during taxi and
 initial rotation, and require air carriers using full flight simulators
 in their training programs to provide flightcrews with special purpose
 operational training that includes an unanticipated pitch mistrim
 condition encountered on takeoff.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-98-047   OAAR
The NTSB recommends that the FAA: requiring training for cargo handling
 personnel and develop advisory material for carriers operating under 14
 Code of Federal Regulations Part 121 and principal operations
 inspectors that addresses curriculum content that includes but is not
 limited to, weight and balance, cargo handling, cargo restraint, and
 hazards of misloading and require all operators to provide initial and
 recurrent training for cargo handling personnel consistent with this
 guidance.  FAA                            Open Acceptable Alternate Response
------------------------------------------------------------------------
Log Number 2681Issue Date 8/11/1998        Najran SAU             9/6/1997On 9/6/97, a Saudi Arabian Airlines (Saudia) Boeing 737-200, powered by
 two Pratt & Whitney (P&W) JT8D-15 engines, experienced an uncommanded
 acceleration of the No. 2 (right) engine during takeoff roll at Najran,
 Saudi Arabia. The captain reported that he noticed that the exhaust gas
 temperature (EGT) overtemperature light for the No. 2 engine was
 illuminated during the takeoff roll at approximately 110 knots. The
 captain reduced thrust on the No. 2 engine, but the EGT indication
 remained at the maximum EGT limit. The takeoff was rejected and the
 thrust levers were retarded to idle; however, the No. 2 engine remained
 at a high power level. Further attempts to retard the power were
 unsuccessful and the airplane departed the left side of the runway,
 resulting in damage to the landing gear and separation of the No. 2
 engine. Four of the 79 passengers sustained minor injuries during the
 evacuation, and the airplane was destroyed by a post-crash fire. The
 NTSB is participating in the Presidency of Civil Aviation of the
 Kingdom of Saudi Arabia's investigation in accordance with provisions
 of Annex 13 to the Convention on International Civil Aviation.                            Overall Status         Priority
Recommendation # A-98-070   OAAThe NTSB recommends that the FAA: in conjunction with representatives
 from engine and airframe manufacturers and pilot groups, address the
 issue of automatic engine response following the loss of inputs such as
 the N2 signal by studying events in which uncommanded and
 uncontrollable engine power excursions have occurred and, based on the
 results of the study, make appropriate recommendations that address the
 following: (1) automatic engine response following the loss of certain
 inputs; and (2) crew operating and training issues related to
 uncommended engine power excursions in which the throttle is
 ineffective.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2726Issue Date 11/4/1998        Asheville NC           7/31/1997On 7/31/97, the Atlanta Air Route Traffic Control Center (ARTCC)
 reported an operational error resulting from its issuance of a
 clearance to Atlantic Southeast Airlines Flight 805 to descend below
 the minimum instrument altitude (MIA) applicable to the area southwest
 of Asheville, North Carolina. The pilot received a ground proximity
 warning and climbed back to safe altitude, reporting the incident to
 Atlanta ARTCC after landing. The NTSB requested info on this incident
 including a copy of the Atlanta ARTCC MIA chart for the Asheville area.
 Inspection of this chart, used by controllers to determine safe
 operating altitudes for aircraft operating under instrument flight
 rules (IFR), revealed apparent noncompliance by the Atlanta ARTCC with
 various FAA handbooks and orders.                            Overall Status         Priority
Recommendation # A-98-082   OUAThe NTSB recommend that the FAA: review all en route minimum instrument
 altitude charts and associated National Airspace System adaptation to
 ensure that air traffic control (ATC) facilities comply with FAA orders
 7210.3, 7210.37,8260.3, and 8260.19 and that pilots comply with 14 Code
 of Federal Regulations Part 91.177 when operating at ATC-assigned
 altitudes.  FAA                                Open--Unacceptable Response
------------------------------------------------------------------------
Log Number 2630AIssue Date 11/30/1998       Monroe MI              1/9/1997On January 9, 1997, an Empresa Brasileira de Aeronautica, S/A (Embraer)
 EMB-120RT, operated by COMAIR Airlines, Inc.. crashed during a rapid
 descent after an uncommanded roll excursion near Monroe, Michigan. The
 flight was a scheduled, domestic passenger flight from the Cincinnati/
 Northern Kentucky International Airport, Covington, Kentucky, to
 Detroit Metropolitan/Wayne County Airport, Detroit, Michigan. The
 flight departed Covington with 2 flightcrew, 1 flight attendant, and 26
 passengers on board. There were no survivors. The airplane was
 destroyed by ground impact forces and a post-accident fire. IMC
 prevailed at the time of the accident, and the flight was operating on
 an IFR flight plan. The probable cause of this accident was the FAA's
 failure to establish adequate aircraft certification standards for
 flight in icing conditions.                            Overall Status         Priority
Recommendation # A-98-089   OAA
The NTSB recommends that the FAA: require principal operation inspectors
 (POIs) to discuss the information contained in airplane flight manual
 revisions and/or manufacturers' operational bulletins with affected air
 carrier operators and, if the POI determines that the information
 contained in those publications is important information for flight
 operations, to encourage the affected air carrier operators to share
 that information with the pilots who are operating those airplanes.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-98-096   OUA
The NTSB recommends that the FAA: require the manufacturers and
 operators of all airplanes that are certificated to operate in icing
 conditions to install stall warning/protection systems that provide a
 cockpit warning (aural warning and/or stick shaker) before the onset of
 stall when the airplane is operating in icing conditions.  FAA                                Open--Unacceptable Response                            Overall Status         Priority
Recommendation # A-98-102   OAAThe NTSB recommends that the FAA: require air carriers to adopt the
 operating procedure contained in the manufacturer's airplane flight
 manual and subsequent approved revisions or provide written
 justification that an equivalent safety level results from an
 alternative procedure.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Log Number 2547BIssue Date 4/16/1999        Aliquippa PA           9/8/1994On 9/8/94, about 1903:23 Eastern Daylight Time, USAir (now U.S. Airways)
 Flight 427, a Boeing 737-3B7 (737-300), N513AU, crashed while
 maneuvering to land at Pittsburgh Int'l. Airport, Pittsburgh, PA.
 Flight 427 was operating under the provisions of 14 Code of Federal
 Regulations (CFR) Part 121 as a scheduled domestic passenger flight
 from Chicago-O'Hare Intl. Airport, Chicago, IL, to Pittsburgh. The
 flight departed about 1810, with 2 pilots, 3 flight attendants, and 127
 passengers on board. The airplane entered an uncontrolled descent and
 impacted terrain near Aliquippa, PA. All 132 people on board were
 killed, and the airplane was destroyed by impact forces and fire.
 Visual meteorological conditions prevailed for the flight, which
 operated on an instrument flight rules flight plan.                            Overall Status         Priority
Recommendation # A-99-022   OAAThe NTSB recommend that the FAA ensure that future transport-category
 airplanes certificated by the FAA provide a reliably redundant rudder
 actuation system.  FAA                                 Open--Acceptable Response                            Overall Status         Priority
Recommendation # A-99-023   OAAThe NTSB recommend that the FAA: amend 14 Code of Federal Regulations
 Section 25.671(c)(3) to require that transport-category airplanes be
 shown to be capable of continued safe flight and landing after jamming
 of a flight control at any deflection possible, up to and including its
 full deflection, unless such a jam is shown to be extremely improbable.  FAA                                 Open--Acceptable Response
------------------------------------------------------------------------
Total Number of Recommendations for Recommendation Report: 32

    Senator Begich. I guess that is where I would like to go, 
and I don't know, in your study in regards to the deicing, I 
would be curious kind of what that batch of the oldest are, 
just to get an understanding. But it is outrageous that it 
takes that long, and part of me says give us the list and let 
us figure out how to legislatively change it.
    The system needs to be changed. There is no question about 
it. I mean, based on just this brief conversation here, it is 
clear to me that the process is overburdened, and it is 
basically putting people at risk because the business you are 
in, in the sense of making recommendations to make 
transportation in all modes safer, it would be logical that we 
would want those implemented faster.
    So let me, if I can, go to the cockpit recorder. I am 
just--if I can put that comment, then let me go to the question 
first on the--I am not as familiar with the technology that is 
utilized for truckers and what you are trying to mandate there. 
Can you explain that onboard computer system? What does it 
track? Just so I understand.
    Ms. Hersman. The electronic onboard recorders for the 
trucking industry are really meant to monitor hours-of-service, 
how many hours drivers are working----
    Senator Begich. So the vehicle is in motion?
    Ms. Hersman. Yes, when the vehicle is in motion. There are 
some algorithms that account for time if they are stopped in 
traffic and such.
    Senator Begich. Sure.
    Ms. Hersman. But the recorder is on.
    Senator Begich. OK. And then back to the cockpit recorder, 
is there--I mean 2 hours seems, and maybe it is just because I 
fly a little more distance than most, 2 hours seems to be such 
a short period when you include time on the ground when you 
land, time on the ground when you take off, and then the in-
between travel time. And I think you said it is about a 3-year, 
what was the timetable before it starts being implemented to 
upgrade the system?
    Ms. Hersman. For new aircraft, 2010. And for retrofit, 
2012.
    Senator Begich. It seems, now maybe I am wrong, the 
technology seems so easy to get. I mean, I just know what 
equipment I get just for my own personal use and business use, 
why for the retrofit it takes long, that period of time. I 
understand the new ones. That is easier. That is next year, 
which is great. Why longer for retrofitting?
    Then the second piece is why not longer than 2 hours? I 
mean, my little video camera can do a lot of stuff for hours 
and hours. My police officers, when I was mayor, the amount of 
capacity they could record was unbelievable on a simple DVD 
that we used multiple times for court cases.
    Ms. Hersman. It is amazing, and I think it changes every 
day. Every year we have better technology available to us. We 
used to only record eight parameters on the flight data 
recorders. Now we have hundreds or thousands every time we pull 
a flight data recorder.
    Senator Begich. Right.
    Ms. Hersman. So the capacity is there. I think for our 
investigators, we have operated with a maximum of 30 minutes 
recording time for so long that 2 hours really seems like a 
great deal to us. We were very excited to get 2 hours, and 
frankly, for most accident situations, 2 hours will give us 
what we need.
    Senator Begich. Enough information?
    Ms. Hersman. What we need, yes. Because usually when we are 
looking at an accident, we are not necessarily always looking 
at the taxi time back to the gate and things like that.
    Senator Begich. Got you.
    Ms. Hersman. But in this situation, yes, that 30 minutes 
was eaten up by that approach to Minneapolis.
    Senator Begich. Right.
    Ms. Hersman. So the actual event period wasn't recorded.
    Senator Begich. So 2 hours seems adequate at this point, 
based on what you are trying to accomplish?
    Ms. Hersman. Yes, sir.
    Senator Begich. Let me end on this question, and this is on 
a whole--and if you don't have an answer right away, I would be 
interested in this for the record. And that is, as laid out by 
Dr. Dillingham, the age of your workforce, which is not 
uncommon for most Government agencies, but specifically yours 
is a highly trained, sophisticated, and technical workforce, I 
would be curious. And you don't have to do it right now if it 
is a prolonged answer, and that is what are the steps you are 
taking to start bringing in a new workforce to replace that, 
which may require overlapping workforce, which may mean your 
budgets may have to be adjusted up for a period of time to 
require that overlap period while you are transitioning out of 
one group that is retiring to a new group that is in?
    Because the way budgets usually work is you budget them for 
a certain amount of personnel. When those personnel leave, then 
you hire new ones. The problem here is 50 percent of your 
workforce, you want to transition that technology, that 
knowledge to a new workforce. So does your budgets reflect 
that, and do you have a robust training program to deal with 
that?
    Ms. Hersman. I will try to answer you quickly, but if you 
want more detail, we can get back to you in writing.
    [The information referred to follows:]

    The NTSB has included 20 student positions in its optimum staffing 
level of 477. These positions would be used to bring in graduate 
students to our lab and our modal offices to ``learn the business'' as 
part of our long-term staffing strategy. NTSB also needs to be able to 
hire more senior staff to bring in expertise in newer technologies from 
industry and academia.
    The NTSB has made steady progress in building our staffing level 
since 2007. Prior to that, level funding combined with across-the-board 
rescissions, pay raises, and inflation required reductions from the 427 
on-board staff level in early 2003. The NTSB does not have the 
flexibility to offset mandatory cost increases or funding reductions by 
cutting programs. Approximately 90 percent of our budget covers 
salaries, benefits and infrastructure costs. The NTSB also anticipates 
a significant increase in our rent when the headquarters lease expires 
in 2010.
    Appropriations that fail to cover mandatory pay raises and 
inflation can only be accommodated through staffing reductions. 
Strategies under consideration to deal with Federal deficits include 
reductions to appropriation requests for Fiscal Year 2011, which may 
have a negative impact on NTSB's succession planning efforts.

    Senator Begich. Good. Great. Thank you.
    Ms. Hersman. We do have plans for succession planning and, 
in fact, I think we are working very actively on those right 
now because many of our senior staff have plans to retire soon. 
So, we really have to think about that.
    We are trying to have more diverse recruiting, too. But we 
have to follow Federal hiring rules, and also we can't double 
encumber those positions. And so, as a former mayor, you 
probably understand that I am not allowed to hire someone for a 
slot until the person who is holding that slot leaves.
    Senator Begich. Unless you get budgetary authority to do 
that?
    Ms. Hersman. Well----
    Senator Begich. OK. That is all. I understand. Because 
without that, you are not going to be able to transition that 
knowledge.
    Ms. Hersman. Yes. We have real traditional challenges 
because we can't begin the hiring process to replace our 
subject matter experts until they are gone. And so, we are at a 
loss until their replacements are hired and in place.
    Senator Begich. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Thank you, Senator Begich.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I just want to ask Ms. Hersman, the Board has recommended 
that Congress expand the Board's responsibilities by explicitly 
authorizing the Board to investigate incidents as well as 
accidents. I have a press release from the Airline Pilots 
Association in which the Airline Pilots Association says, ``The 
NTSB is an independent Federal agency charged with determining 
the probable cause of transportation accidents and promoting 
transportation safety. They are not charged with prematurely 
releasing self-disclosed information to be sensationalized in 
the press.''
    Now this is in response to the Minneapolis airport incident 
about which we have all heard. Do you feel like your request 
from the Board to investigate incidents would give you the 
authority to acknowledge something like this incident where the 
pilots apparently were distracted? Would the NTSB be able to go 
in and make a recommendation even though there was no accident?
    Ms. Hersman. Thank you for that question, Senator, because 
I think there has been a lot of confusion in the press this 
week. And I do think that Congress's original intent for the 
Safety Board was for us to look at any accident or incident 
that could help prevent loss of life or improve transportation 
safety.
    And in our statute, it is not explicit, and I think that is 
why we are asking for this authority. There are references to 
accidents and incidents and drug testing provisions and the 
cockpit voice recorder provisions in the Safety Board statute, 
as well as a requirement for us to establish what is defined as 
an accident or an incident.
    And so, it is clear that there was some intent to include 
incidents. We think if it were included in our general 
authority, it would make it clear to everyone. Historically, we 
have investigated incidents. This past week, we launched on two 
incidents that didn't result in fatalities or damages. One was 
the Minneapolis incident that you all are talking about. The 
other was a 767 that landed on a taxiway in Atlanta.
    And so, we are investigating incidents. We do that all the 
time. That is how runway incursions came to be included on our 
Most Wanted List. While they may not result in an accident, we 
no the less investigate them, whether they are near misses in 
midair or on the ground.
    We think that it is important that we continue to 
investigate incidents. We can learn so much more by talking to 
people who witnessed the incident than by having to try to 
piece it together from CVRs.
    Senator Hutchison. I see that point and I appreciate it, 
and I think that we should be more clear because, of course, we 
want to prevent the accidents before there are fatalities. And 
so, that should be a clear part of your goals.
    Let me ask you this. You also have said that you are 
recommending, that the Board's responsibility to investigate 
rail accidents be limited only to those accidents in which 
there are numerous fatalities or significant accident involving 
a passenger train.
    Now, with that proposal, you are looking at maybe taking 
away some of the responsibility that doesn't give you 
flexibility. Could you expand on why you are asking for that 
responsibility to be lessened, and what is causing that? Do you 
have too many employees having to go to accidents that you 
don't think are accidents in which you can make a 
recommendation? Tell me why you are doing that.
    Ms. Hersman. We don't know whether we are going to find an 
issue until we go. Our biggest challenge is really resources. 
Right now, we are not going to all of the statutorily required 
launches on rail accidents. We just don't have the resources.
    We have 13 rail investigators, and they are investigating 
transit accidents from the WMATA crash to the Chatsworth crash. 
They are looking at freight train accidents as well as transit 
property events.
    And so, we just don't have the resources to go to every 
rail accident. Right now we are required to report to Congress 
on all of the rail launches that we don't go on that are 
statutorily required. We are simply asking for more flexibility 
in deciding which accidents we do go to, like we have in the 
highway arena. But certainly, it is up to the Congress in our 
reauthorization to give us your direction and priorities.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Thank you.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    And thank you both for being here today.
    To get back to the Most Wanted List, Chair Hersman, because 
I think that really that underscores some of the fundamental 
issues we are facing. And first of all, I agree with you about 
shortening the timespan between the accident and providing 
recommendations, if it is at all possible. I think that that is 
important.
    But second, what concerns me is the sort of culture that 
has emerged where the FAA doesn't seem to be responsive or need 
to be responsive to the recommendations that are made by the 
NTSB. I know you probably get a return letter saying thank you 
very much for your recommendation, and that is about the size 
of it.
    That is disconcerting when you think about your Most Wanted 
List of which there are six unacceptable responses, several of 
which obviously have been fundamental to key accidents, 
aviation accidents and, tragically, in recent times.
    So, can you give me an idea of what occurs between the NTSB 
and the FAA in this regard? I mean, for example, Senator Boxer 
and I have introduced legislation as part of the FAA 
reauthorization to require a response on the part of the FAA to 
specifically respond to each and every recommendation and to 
make it public, which I think at the very least needs to occur.
    But there needs to be accountability and responsibility for 
each of these recommendations and how the FAA either responds 
to them or doesn't respond to them. But what can you tell me 
from your experience, having been on the Board, I know just 
most recently as Chair, about what is the relationship between 
the NTSB and the FAA in that regard?
    Ms. Hersman. I think it is always challenging for us. We 
have to have a good tension between us asking them to do things 
and their having to prioritize what we ask them to do. And we 
have about 400 open recommendations to the FAA. So, they really 
have to prioritize, and that is up to them.
    We try to prioritize on our Most Wanted List and say we 
know you have got a lot to do, but do these first. So it is a 
challenge for the FAA, and I think probably you may want to ask 
them how they prioritize.
    But I think for us, we really have appreciated the 
accountability that the Congress has provided by holding the 
FAA's feet to the fire. I can say that we have had good 
interaction with Administrator Babbitt thus far. He has taken 
quick action on a number of issues that we have brought to his 
attention. We would like to see that continue.
    Senator Snowe. Well, I think it is important, and I do 
agree with you. I think we have to assume some of the 
responsibility for that as well to make sure it happens and 
require them to be responsive to those----
    Senator Dorgan. Senator Snowe, would you yield on that 
point?
    Senator Snowe. Yes, I would be glad to.
    Senator Dorgan. As you know, Administrator Babbitt has been 
in front of us in these safety hearings, and he has made 
representations about what he is going to do. He is new to 
this.
    Senator Snowe. Right.
    Senator Dorgan. But we are going to call him back in front 
of the Committee in the near future and ask, all right, you 
have made certain representations about what you are doing. Let 
us find out what you did. We do want to keep pressure on the 
agency here with respect to these recommendations. I just 
wanted to alert you that we will be having that hearing.
    Senator Snowe. I appreciate that. No, that is excellent. I 
think we do have our role to play, and I appreciate the 
vigorous oversight that you are providing, Mr. Chairman, 
because I do think it is crucial. If you think that two of the 
four recommendations we include in our legislation, they were 
the potential causes of the previous fatal accidents that were 
so tragic.
    And so, we have to be very proactive in that regard and 
make sure that you have the resources. Do you have the level of 
resources necessary to do the investigations, for example? I 
notice that on the report, your predecessor testified before 
this committee in June and commented there were no resource 
issues surrounding the investigation of the Buffalo crash, 
3407. And yet this report isn't coming out until March.
    And I understand that the reason for that delay is because 
there is a lack of resources. Is that true? Do you have 
sufficient resources to do what you need to do?
    Ms. Hersman. I think we could certainly use more resources. 
We are down 33 employees from where we were just a few years 
ago. For an agency our size--we only have 390 people right 
now--that is almost 10 percent of our employees, and we have 
more and more to do every year. The investigation of accidents 
is increasingly more complex, and technical.
    In the 5 years that I have been at the Safety Board, the 
number of recording devices that have been read in our lab has 
doubled, and our lab has fewer staff to do that work now. And 
so, we have significant challenges.
    Senator Snowe, I want to let you know that one of the 
priorities that I have is to complete the Buffalo accident 
investigation within a year. And so, our staff and our 
management team are working very hard to reallocate resources 
and support to accomplish that.
    And so, but what that means is that means other 
investigations may have to move to the back burner as we pull 
some staff on to push this one forward.
    Senator Snowe. Well, I appreciate that very much, and we 
appreciate the work that you are doing. And also I think being 
emphatic about what are the key priorities because that is 
always difficult to do when you are talking about the numerous 
recommendations.
    For example, in aviation, out of the 800 recommendations 
across all modes of transportation, half of them are related to 
aviation. That is substantial. So that is why this is very 
helpful and at least identifying the crucial ones, and of the 
six, I mean, they are all unacceptable responses in terms of 
the FAA taking aggressive steps to accommodate and to respond 
to that. So that is unfortunate.
    But we appreciate your work. Thank you.
    Ms. Hersman. Thank you.
    Senator Dorgan. Senator Snowe, thank you very much.
    Senator Begich, do you have additional questions?
    Senator Begich. Just very quick ones, if I could? One to 
follow up on Senator Snowe's question regarding the requirement 
that we are putting into--which they have put into the FAA bill 
regarding that they need to respond in detail. Do you think we 
should do the same thing with the Coast Guard, the motor 
carrier safety, national highway safety pipeline, have the same 
thing?
    In other words, should we have that same requirement to 
know what they are doing?
    Ms. Hersman. Anything that you can do to help get our 
recommendations implemented would be appreciated.
    Senator Begich. OK. And the last question for me at this 
point, and that is a follow-up again on the resources. I always 
view resources two points. One is financial resources, and then 
you may have those financial resources, but do you have the 
capacity to ensure that you have the people to do the work?
    So, in other words, first, on the financial resources, to 
follow up and make sure I am clear on that. Do you believe the 
numbers that I have seen in the documents here, do you believe 
that amount is what you need? Or do you have higher requests? I 
understand OMB and all that stuff. I am looking at you from an 
agency standpoint.
    Do you need additional cash resources? And then do you 
believe you can get the talent in the marketplace to fill those 
spaces that that money would buy?
    Ms. Hersman. On the first question, the Safety Board is 
very fortunate. We have a dual report. We get to report to the 
Congress and to the Executive Branch. I can tell you that our 
request for funding this year was $20 million higher than the 
OMB passed back to us. And so, for financial purposes, we need 
more money. We are down 33 staff from where we were a few years 
ago. We need more money.
    As for attracting new talent, I can tell you that we have 
posted for positions to be filled and received many responses. 
For one position, we have hundreds of applications. So, we have 
no problem attracting talent. People want to come work for the 
Safety Board. For many of them, it is their life's goal to come 
work at the Safety Board.
    We are so fortunate. We have such an incredible staff who 
love what they do and are so perfectly suited to do those jobs. 
We can get the people if we get the money.
    Senator Begich. OK, and your delta was about $20 million. 
Is that right?
    Ms. Hersman. Yes, in the passback that we got from OMB. But 
our House and Senate appropriations marks were higher than the 
President's budget this year. So we are waiting for the 
conference.
    Senator Begich. But not the full $20 million?
    Ms. Hersman. No.
    Senator Begich. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Begich, thank you very much.
    I think the resource question is really very important 
because we have more people traveling, more complex 
transportation systems out there, and there are plenty of 
reasons and ways to save money here at the Federal level. Lord 
knows there is plenty of waste. But it seems to me scrimping on 
the issue of safety is a pretty unwise selection, and so we 
want to work with you on that.
    Describe for me the history of when the NTSB employment was 
reduced, that the FTEs were reduced and why. Do you have some 
notion of that?
    Ms. Hersman. I do, and we can provide you a chart on that.
    [The information referred to follows:]

    The following chart provides staffing by Fiscal Year since our 
staffing high point in 2003:
         FY 2003                    427
        FY 2004                    421
        FY 2005                    417
        FY 2006                    387
        FY 2007                    377
        FY 2008                    388
        FY 2009                    393

    I think it is just that, over time, our FTE numbers have 
not been able to keep pace because the dollar amounts have not 
increased. All of our budget is really for salaries. We don't 
do grants. We don't have a research budget.
    And so, because the majority of our budget is salaries, the 
years, when we were flatlined, resulted in a reduction in 
employees for us.
    Senator Dorgan. Let me ask about the area of airline parts 
and the issue of counterfeit parts, which is, of course, a 
significant concern and safety issue, and also the issue of 
repair stations in Third World countries. Is that something 
that the NTSB looks at, or is that something left to others?
    Ms. Hersman. We have not yet looked at it. But if there 
were an accident where that was an issue, you can be sure we 
would follow through on it. But generally, our investigations 
follow whatever the issues are that develop within that 
investigation.
    The last time we had an issue with a third-party 
maintenance operation was in the Charlotte accident, where 
there was some maintenance done at a repair station. But it was 
a domestic one. They misrigged the elevator cables, and we 
addressed that in that. But it was a domestic repair station.
    Senator Dorgan. I asked the question not to imply that 
foreign repair stations necessarily are of lesser quality than 
domestic repair stations, but in a book I wrote some while ago, 
a few years ago, I pointed out that one of our carriers flies 
empty 320 Airbuses to El Salvador for their maintenance. Then 
they fly them back empty. And presumably, the purpose of that 
is they can get much lower cost maintenance.
    And the question is in some of those areas where you have 
that kind of outsourcing to Third World countries, is the 
supervision, is the attentiveness to the same quality 
workforce, and so on, is it what we would expect if it were 
done in this country?
    And I don't know who is looking at that. I guess I am just 
asking the question is that something that you all take a look 
at?
    Ms. Hersman. It is not something that we have looked at 
yet. But as I said, if it becomes an issue in an incident or an 
accident that we investigate, we will take a look at it. I have 
read----
    Senator Dorgan. Who does look at it then?
    Ms. Hersman. The DOT IG has done some work on that, and I 
have reviewed their work. But we have not yet done anything on 
that.
    Senator Dorgan. In the transportation systems--trucking, 
bus, railroads, airlines, and so on--what do you think from a 
safety standpoint at this point needs the greatest attention? 
Is there one area of transportation that you think has less 
attention paid to it from the standpoint of safety and needs 
more attention from you and from us?
    Ms. Hersman. You are talking about from mode to mode?
    Senator Dorgan. Mode to mode.
    Ms. Hersman. Absolutely. About 40,000 people are killed on 
the highways every year. Ninety-five percent of our 
transportation fatalities occur on the highways, yet we get a 
lot of attention for an aviation accident. Many more people are 
killed on our Nation's highways, yet we hear little about those 
accidents.
    Highway accidents are preventable. Senator Lautenberg was 
just talking about drunk driving, seatbelt use, making sure 
that children are restrained appropriately in size and age-
appropriate restraints are among so many things that can be 
done. Distractions, those are issues that Congress is 
addressing, which is very important.
    We need to keep the pressure on highway safety because that 
is the mode in which we lose the most people; these deaths 
occur one or two at a time, so people don't pay much attention 
to it. I heard on the radio recently that we lost two people in 
Baltimore to the H1N1 virus. But how does that compare to the 
many people we have lost in highway accidents this year, and no 
one is talking about that.
    Senator Dorgan. But you are not going out investigating 
highway accidents, are you, at the NTSB?
    Ms. Hersman. We can, and we do. But that is a mode where we 
don't have a lot of resources. We could do more if we had more. 
We have about 14 highway investigators, but we have 
investigated everything from the Minneapolis bridge collapse in 
Senator Klobuchar's state to a 17-fatal motorcoach accident 
that occurred in Sherman, Texas, last year. On Tuesday, we 
approved the report on that accident.
    We have too few people to address those issues, but we have 
done things like forums on motorcycle safety and others.
    Senator Dorgan. With respect to the 90 minutes of an 
airplane flying at 37,000 or whatever its altitude, the 
country, the authorities were all deaf and blind for an hour 
and a half with respect to a commercial carrier, which is just 
unforgiveable. I mean, we are going to have to make some 
changes with respect to cockpit recordings and so on because 
that doesn't make any sense.
    We had, on 9/11, as you know, airplanes were turned around 
once they were hijacked, and they were flying through that sky 
without any communication. And I understand the other day that 
jets were about to be scrambled, fighter jets were about to be 
scrambled. Will your report also include some evaluation of 
what happened with respect to the carriers, the air traffic 
controllers, and the communications with the DOD with respect 
to the scrambling of military jets?
    Ms. Hersman. Mr. Chairman, I think probably that is a 
challenging issue for us. Our focus is safety and not security, 
and there are others who are better suited to look at the 
security issue. We have to be careful to stay in our lane a 
little bit.
    But we will certainly be looking at the air traffic control 
and the company response and to see if they complied with the 
procedures and the expectations that they had. But you might 
want to ask the FAA about the security side.
    Senator Dorgan. That is a fair response, but it seems to me 
if you were one of the 144 people on an airplane where there 
was a prospect of scrambling fighter jets because it flew deaf 
and blind to us, at least we were deaf and blind for an hour 
and a half, there is a safety issue with respect to the folks 
on that plane when fighter jets are scrambled to intercept it. 
But----
    Ms. Hersman. Yes. Well, we will certainly make our best 
effort to coordinate with the military and FAA as we move 
forward in our investigation.
    Senator Dorgan. The only reason I ask about that. This is a 
very unusual circumstance since 9/11 of a large commercial 
airplane flying out of contact for an hour and a half, which I 
suspect caused substantial alarm among those who were supposed 
to be identifying what is this in the air. Or they knew which 
plane it was because a transponder, I am sure, was bleeping on 
a groundways radar, but they didn't know what had become of 
that plane or what was happening to the plane.
    With respect to resources, Senator Begich I think, asked 
the appropriate questions. I think it would be useful perhaps 
if you would, if you can, submit to us that which you requested 
from OMB so that we can understand what the agency request was 
and what you think your needs are.
    [The information referred to follows:]

    Copies of the NTSB's 2010 and 2011 requests to OMB will be 
provided. For 2011, the Administration requested agencies to present 
requests: (1) at the level for Fiscal Year 2011 that was contained in 
the President's 2010 budget; (2) at the same level as the President's 
budget for Fiscal Year 2010; and (3) at a 5 percent reduction to the 
2011 level contained in the President's 2010 request. In addition to 
these three discretionary funding levels requested by OMB, NTSB 
submitted funding scenarios for the following targets:

  <bullet> Authorized staffing level, plus 2 FTE positions to support 
        the Rail Passenger Disaster Family Assistance Act of 2008 
        ($117.4M; 477 FTEs)

  <bullet> Projected FTE level for Fiscal Year 2010 plus 10 critical 
        positions to assist with succession planning efforts ($103.7M; 
        416 FTEs)

  <bullet> Projected FTE level for Fiscal Year 2010 ($101.5M; 406 FTEs)

    The NTSB request to OMB provides all six scenarios for purposes of 
comparison.

    Senator Hutchison asked the question about investigating 
incidents. My own view of that is I think you do have and 
certainly should have the authority to investigate incidents. 
And the question of what is your lane, I would want that lane 
to be wide enough so that you don't have to wait until there 
are casualties and fatalities to investigate the safety issues.
    You should be able to investigate the safety issues and 
make recommendations with respect to incidents that could have 
caused casualties as well. So I think that is important.
    We, as I said, are going to have Administrator Randy 
Babbitt to come before the Committee to tell us what progress 
he has made on implementing recommendations. It may be the case 
that not every single recommendation by the NTSB is something 
that is practical or achievable in the short term.
    But I come back to what I started with, this issue of my 
going back last evening and finding that in 1999, the NTSB 
upbraided the FAA for essentially ignoring the recommendations 
on icing, and then last October, once again, being upset with 
the FAA and actually identifying the Dash 8 as one of the kinds 
of planes that will have problems with icing before the Buffalo 
crash.
    I mean, that is unacceptable. It is just not acceptable for 
a government to work that way. There should not be a right hand 
and a left hand. There ought to be a handshake between agencies 
to do the best we can to improve safety in every respect.
    And in circumstances where we have an agency whose job it 
is to investigate with respect to safety issues, make 
recommendations with respect to safety issues, it is not 
acceptable that we have the enforcement agency or the other 
agency that should implement recommendations by and large 
ignoring them. Or if not ignoring, operating so slowly.
    I don't--you mentioned, Chairman Hersman, that sometimes it 
takes a long, long time. Well, you know what? I understand 
that. But sometimes it takes way too long. And a process that 
takes 10 years, I am thinking of a process right now that I am 
going to hold a hearing on soon that takes 25 and 30 years, 
which is obscene for a government to have a process--this isn't 
a safety process--but for the Government to have a process to 
make a decision in which they can't make a decision for 
decades. It is outrageous.
    In this case, the icing issue was a decade old, and people 
died. And this Government has got to do better than that, and 
we owe it to the American people to do better.
    Senator Snowe, did you have a final comment?
    Senator Snowe. I had another question, and I couldn't agree 
with you more, Mr. Chairman. And you are looking at the Most 
Wanted List, in fact, on crew fatigue, that is about two 
decades old, practically speaking. So it is amazing that these 
types of issues can languish for decades. It can obviously have 
a profound impact on life and death matters.
    I wanted to follow up one other issue. I know that the NTSB 
has issued regulations with respect to air ambulances, which 
was unprecedented in the sense that some of them were addressed 
to the Centers for Medicaid and Medicare, and there were 21 of 
them in total. And I have been working with Senator McCaskill 
and Senator Cantwell on this issue.
    In fact, Senator Cantwell and I had attempted to offer an 
amendment during the healthcare reform markup in the Finance 
Committee, and unfortunately, there was some resistance. And I 
know the FAA, as I understand, also objected to the inclusion 
of these recommendations that basically would require Medicare 
accreditation contingent on achieving certain safety measures, 
that these air ambulances would have to achieve certain 
standards.
    We have seen a nearly 500 percent increase in Medicare 
reimbursement costs with respect to air ambulances. Last year 
was the worst year on record for fatalities. There were more 
than 29. Could you comment on this and give me any insights 
with respect to this issue? And hopefully, we will attempt to 
explore it on the floor when we are addressing healthcare 
reform.
    Ms. Hersman. Senator Snowe, thank you very much for your 
interest in this issue and your efforts to try to advance it. I 
think that a lot of the work of the members of this Committee 
is actually what brings the issues to the forefront for us.
    We made recommendations. Frankly, our investigation on EMS 
accidents goes back to a special study we did in 1988. 
Throughout the years, we have continued to work on it. In 2006, 
we released four recommendations based on 55 accident 
investigations, and those four recommendations now reside on 
our Most Wanted List. And the reason why they are there is 
because since 2006, those recommendations have not been 
implemented.
    And so, last year, we thought they were so important, 
especially given the number of accidents last year--29 
fatalities in 9 accidents--that we put those on our Most Wanted 
List. We continue to push in an effort to raise the profile of 
these recommendations. In fact, we did a 4-day public hearing 
this past year on HEMS issues.
    At that public hearing, we heard testimony that the number 
of helicopters involved in EMS operations has increased by 80 
percent in the last 10 years, and we believe that that is 
directly attributable to the reimbursement they get from 
Medicare now. In investigating these accidents, we really need 
it to follow the money.
    FAA is not going to require operators to conduct risk 
assessment before they go to assess. Is the weather good? Is 
there a good landing site? What do we need? What are the 
conditions? Is it VFR? Is it IFR?
    Operators need to do an assessment before they leave, so 
that they don't leave and get into a bad situation. These 
recommendations are not rocket science. They can be done.
    But FAA was not accomplishing them. And so, we believed 
that if we followed the money and we said to Medicare and 
Medicaid, ``Before you pay these people, at least make sure 
they have good safety standards which yield a high level of 
safety.'' The people that are getting transported via HEMS 
deserve that.
    We have seen this be effective in other modes or other 
situations. The Department of Defense relies on many air 
carriers for lift. They give them an audit to make sure that 
they are meeting the DOD standards. The same thing for DOD 
contracts on motorcoaches.
    We are asking for the same with HEMS. Use the money to 
raise the standard of safety. If we can't get it done through 
regulation, there might be other ways to accomplish the task. 
That is what we asked, and we appreciate you following up on 
it.
    And thank you all for sharing in our passion for these 
issues.
    Senator Snowe. Oh, absolutely. Thank you.
    And we will follow up. I can assure you of that. Thank you 
very much.
    Senator Dorgan. Thank you very much.
    Let me just make a final comment that I think I should 
make, and that is public transportation in this country is 
very, very important. And we talked about airplanes and buses 
and railroads, the trains today. And I expect even as I speak, 
and I know that there are pilots, there are engineers, there 
are bus drivers out there doing a terrific job every day. They 
are professionals. They care a lot about meeting the tests of 
all the rules and regulations.
    I want to say that because while we have had some tragedies 
with respect to aviation and other modes of transportation, our 
record is really quite an extraordinary record. Aviation, for 
example, we have had quite an extraordinary safety record on. 
But I do want to say even as we talk about all these things, I 
recognize there are a lot of folks that go to work every 
morning and are professional and want to do the best job they 
can in public transportation.
    I do think, though, that we have not always done the best 
job we can in our agencies to make sure that we understand what 
needs to be changed and how do we make sure it happens. That is 
why I asked earlier about enforcement. It is one thing to say 
here is what we should do. The question is how is it enforced?
    I want to just make one final statement, and that is I 
don't know what happens in the cockpits. I assume in most 
cockpits, all of the rules are followed. That is the reason we 
have a system that has relatively few accidents with respect to 
aviation.
    But I am wondering how do we know what happens? Is there 
some mechanism enforcement? Do the individual carriers from 
time to time listen to the cockpit voice recorder to see is 
that sterile cockpit rule being monitored?
    I don't know the answer to that, and Chairman Hersman, you 
indicated you don't know the answer either. I guess that means 
that at the Federal level, perhaps the NTSB and the FAA are not 
engaged in that sort of thing. But I do think there should be 
some mechanism of trying to understand are these rules 
enforced? How are they enforced?
    So let me thank the Government Accountability Office. Dr. 
Dillingham, we have not asked you a lot of questions today, 
largely because I think your evaluation of what the NTSB does 
is a pretty commendable evaluation. I think the NTSB is an 
agency with a fairly strong reputation and apparently good 
management, and we appreciate very much the work the NTSB does.
    This hearing, I think, raises questions about a number of 
things that we will be addressing and perhaps will allow us to 
even alter the FAA reauthorization bill that has now passed 
this committee but waiting further action.
    So I thank Chairman Hersman very much, and Dr. Dillingham, 
thank you for being at this hearing.
    The hearing is adjourned.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Question Submitted by Hon. Byron L. Dorgan to 
                       Hon. Deborah A.P. Hersman
    Question. What is your assessment of provisions contained in S. 
1451, The FAA Modernization and Safety Improvement Act, to mandate the 
Aviation Safety Action Program (ASAP), the Flight Operational Quality 
Assurance (FOQA) program, and the Line Operational Safety Audit (LOSA) 
program for all air carriers?
    Answer. The NTSB believes that safety programs such as ASAP, FOQA, 
and LOSA have contributed greatly to the safety of air transportation. 
While these programs are voluntary, they have been adopted by most of 
the large air carriers and some of the regional air carriers. The NTSB 
believes that all air carriers could benefit from such programs. 
However, there needs to be some flexibility in the adoption of these 
programs as some of the smaller air carriers, typically those operating 
under 14 CFR Part 135, have aircraft that cannot be economically 
equipped with the data recorders necessary to support a FOQA program. 
Additionally, some of these carriers have only a few pilots such that 
it may not be practical or economically feasible to have an ASAP or 
LOSA program. The NTSB is aware that these programs are largely based 
on trust between air carrier management and their unions. Therefore, it 
is imperative that trust be established between all of the parties to 
ensure that the maximum benefit is developed from the creation of these 
programs at an air carrier.

                                  <all>

</pre></body></html>
